<html>
<title> - THE FUTURE OF ZIMBABWE</title>
<body><pre>[Senate Hearing 115-625]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-625

               INSERT TITLE HERETHE FUTURE OF ZIMBABWE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA AND 
                            GLOBAL HEALTH POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                               __________

                           DECEMBER 12, 2017

                               __________

       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
       

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-644 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>        



                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey




        SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH POLICY        

                 JEFF FLAKE, Arizona, Chairman        
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
JOHN BARRASSO, Wyoming               CHRISTOPHER A. COONS, Delaware
JOHNNY ISAKSON, Georgia              TOM UDALL, New Mexico
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon




                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Flake, Hon. Jeff, U.S. Senator from Arizona......................     1


Booker, Hon. Cory A., U.S. Senator from New Jersey...............     2


Coons, Hon. Christopher A., U.S. Senator from Delaware...........     3


Sullivan, Hon. Stephanie, Acting Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department Of State, 
  Washington, DC.................................................     4

    Prepared statement...........................................     6

    Responses to Additional Questions for the Record Submitted to 
      Hon. Stephanie Sullivan by Senator Bob Corker..............    36

    Responses to Additional Questions for the Record Submitted to 
      Hon. Stephanie Sullivan by Senator Jeff Flake..............    38

    Responses to Additional Questions for the Record Submitted to 
      Hon. Stephanie Sullivan by Senator Cory A. Booker..........    38


Godwin, Peter, author and journalist, New York, NY...............    14

    Prepared statement...........................................    15


Biti, Tendai, former Finance Minister and opposition leader, 
  Harare, Zimbabwe...............................................    17

    Prepared statement...........................................    19


Mavhinga, Dewa, Southern Africa Director, Human Rights Watch, 
  Johannesburg, South Africa.....................................    21

    Prepared statement...........................................    24



                                 (iii)

 
                         THE FUTURE OF ZIMBABWE

                              ----------                              


                       TUESDAY, DECEMBER 12, 2017

                               U.S. Senate,
   Subcommittee on Africa and Global Health Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
chairman of the subcommittee, presiding.
    Present: Senators Flake [presiding], Young, Booker, Coons, 
and Udall.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Subcommittee on Africa and Global Health will come to order.
    History was made in Zimbabwe last month when Robert 
Mugabe's nearly 4 decades-long rule over Zimbabwe came to an 
abrupt end. Initially deposed by the military and placed under 
house arrest, Mugabe refused to resign. His Zanu-PF Party 
removed Mugabe as its leader and replaced him with Emmerson 
Mnangagwa. Now, days later, Mugabe resigned just after 
parliament began impeachment proceedings and Mnangagwa was 
sworn in as Zimbabwe's new president on November 24th.
    News of Mugabe's resignation prompted celebrations in the 
streets of Harare and even among Zimbabweans living outside the 
country, all of whom hoped that Zimbabwe's days of living under 
a strongman were over.
    Those of us who watch Zimbabwe closely are also hopeful 
that this marks a turning point for the country that has 
suffered complete economic devastation under a dictator who 
stifled dissent and trampled basic human rights. Zimbabwe has a 
new president, but the critical questions of whether the new 
government reflects material change from Mugabe's decades of 
rule and what path Zimbabwe is likely to take under President 
Mnangagwa--these are things still left unsettled.
    President Mnangagwa is not unknown to us. Until his 
dismissal as First Vice President last month, he had been 
closely allied with President Mugabe since Mugabe's rise to 
power. He stands accused of orchestrating a string of massacres 
in the early 1980s to consolidate Mugabe's power, leaving as 
many as 20,000 people dead in Matabeleland. His cabinet picks 
have disappointed many who were hoping for a new coalition 
government. His selections included military leaders who 
participated in the military takeover and holdovers from the 
Mugabe regime, but nobody representing the opposition.
    There has been much speculation on what policy changes 
Mnangagwa might take given the dire state of Zimbabwe's failing 
economy and the critical steps needed to repair it.
    Today the subcommittee will hear testimony from four 
distinguished experts on Zimbabwe. Each brings a unique 
background and a wealth of experience with them. I thank each 
of you for your time and sharing your expertise with us. I know 
that each of you have rearranged your schedules to travel to 
Washington for this hearing, and on behalf of the committee, I 
thank you for it.
    Let me just say as a personal note I lived in Zimbabwe for 
a time in the early 1980s at a time there was great hope for 
this new democracy. And that hope faded sometime in the 1990s, 
and it has become a nightmare for so many Zimbabweans living 
there and their families abroad. I hope that this marks a 
turning point, and what this hearing is really about is to find 
out what policies we should adopt here in the United States 
Congress to ensure, as much as we can, to nudge at least 
Zimbabwe toward a democratic future.
    So thank you for being here, and I will turn the time over 
to Senator Booker.

               STATEMENT OF HON. CORY A. BOOKER,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman.
    Did you say you lived there in the 1950s? [Laughter.]
    Senator Flake. 1980s.
    Senator Booker. 1980s, okay.
    I want to thank Chairman Flake for holding this timely 
hearing. It is something I am really grateful for. This is 
truly a historic time in Zimbabwe and a pivotal moment in the 
United States' bilateral relationship with Zimbabwe.
    For decades, Congress has played a key role in the U.S.-
Zimbabwe bilateral relationship, most notably through the 
Zimbabwe Democracy and Recovery Act, or ZDERA, passed in 2001 
which aimed to address persistent human rights violations and 
governance challenges by prohibiting U.S. support for 
multilateral and bilateral debt relief and credit for 
Zimbabwe's government.
    Much of the world, including the people of Zimbabwe, were 
optimistic last month after President Mugabe was ousted from 
power, closing nearly 40 years of authoritarian rule. It is the 
hope of many, including myself, the transition from President 
Mugabe to President Emmerson Mnangagwa has represented a 
renewed opportunity for democracy, transparency and 
accountability for the government and, most importantly, for 
all the people of Zimbabwe.
    However, I am concerned that despite the promises made by 
President Mnangagwa to rooting out corruption, to having free 
and fair elections, and to overseeing an inclusive government, 
there is simply not yet enough proof that this regime will be 
any different than the one before. We know that President 
Mnangagwa has announced a cabinet stacked with former close 
associates and military officials. In addition to them being 
involved in past atrocities, many cabinet members also have 
serious corruption allegations against them. This raises 
questions about the government's commitment to a new 
democratic, renewed path forward in Zimbabwe. And although 
President Mnangagwa promised an inclusive and representative 
democracy for all Zimbabweans, the opposition remains left out 
of the government, seeing an ominous sign about the prospect 
for real change for the country.
    The new Government of Zimbabwe and the international 
community must address the yet unanswered calls for justice and 
accountability for the victims of past horrific atrocities 
reportedly committed by members of the now new government. 
Perpetrators of the brutal cleansing of political opposition in 
Matabeleland region in the 1980s in which 20,000 people were 
killed still have not been held accountable after all of these 
years. Thousands of Zimbabweans still live with the physical 
and psychological wounds of this violence.
    As we examine the future of Zimbabwe, one benchmark on the 
horizon is this August's elections. Free, fair, and credible 
elections that are transparent, free from intimidation and in 
which the opposition is allowed to organize, campaign, and 
safely run their candidates must be the signal the U.S. and the 
international community needs to lift some of the barriers to 
bilateral and mutual aid. This benchmark may, in fact, 
determine whether Zimbabwe is ready to capitalize on this 
historic moment.
    I thank our witnesses for being here. And again, as 
Chairman Flake said, you all have crisscrossed the globe, 
changed travel plans to be here to provide your very 
thoughtful, insightful testimony. I am grateful for you. Thank 
you.
    Senator Flake. Thank you, Senator Booker.
    Senator Coons, would you like to say something? Senator 
Coons and I traveled to Zimbabwe almost 2 years ago.

            STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Thank you, Chairman Flake and Ranking Member 
Booker. I will never forget our memorable afternoon tea with 
former President Mugabe. And I think many have waited and 
wondered when the day would come when Zimbabwe would have new 
leadership.
    As the chair and ranking have framed I think very well, the 
question now is what will the new government of Zimbabwe do. 
Will they take the steps needed in order to earn the trust of 
the world community? Can we find ways to support movement 
towards real democracy and a truly open society or not?
    I am very eager to hear from our two panels of witnesses 
today.
    Thank you, Mr. Chairman, for a chance to participate in the 
hearing.
    Senator Flake. Thank you.
    We will now turn to our witnesses. On the first panel, we 
will hear from Acting Principal Deputy Assistant Secretary of 
State Stephanie Sullivan of the State Department's Bureau of 
African Affairs. She will provide the administration's 
evaluation of recent events and the path forward to our 
bilateral relations with Zimbabwe.
    On the second panel, we will hear from Peter Godwin, Tendai 
Biti, and Dewa Mavhinga.
    We know that Peter Godwin, obviously an award-winning 
journalist, best selling author, has written a series of 
memoirs about his native Zimbabwe where he was born and raised. 
I particularly enjoyed those memoirs.
    Tendai Biti, obviously a former finance minister for 
Zimbabwe, current opposition leader, and Dewa Mavhinga, an 
activist with the Human Rights Watch.
    With that, I recognize Ms. Sullivan.

 STATEMENT OF HON. STEPHANIE SULLIVAN, ACTING PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Ambassador Sullivan. Chairman Flake, Ranking Member Booker, 
and distinguished members of the committee. Thank you for the 
invitation to testify today on Zimbabwe.
    The historic turn of events featuring Robert Mugabe's 
resignation offers an extraordinary opportunity for Zimbabwe to 
set itself on a new path. Today I provide this testimony to 
discuss our bilateral relationship, the events leading to the 
transition, and a U.S. position on future engagement.
    Looking back over the past two decades, the U.S. 
relationship with the Zimbabwean Government has been tense. The 
government's repeated violations of its citizens' rights, its 
catastrophic economic mismanagement, and widespread corruption 
were obstacles, making it difficult to engage effectively to 
address Zimbabwe's challenges. Deeply flawed elections in 2008 
and 2013 further entrenched political divides in the country, 
diverting attention from much needed reform.
    Nevertheless, the United States has maintained a strong 
relationship with the Zimbabwean people. Since Zimbabwe's 
independence in 1980, we have provided significant development 
assistance in the areas of health, food security, education, 
and economic opportunity for citizens. Today, our assistance 
builds resilience by helping millions of Zimbabwe's people 
battle HIV/AIDS, tuberculosis, malaria, food insecurity, 
malnutrition, landmines, and human trafficking. Additionally, 
civil society programs bolster civic participation to advance 
democracy, human rights, and governance. These programs are 
critical in enabling Zimbabweans to hold their government 
accountable. None of our foreign assistance involves direct 
funding to the Government of Zimbabwe.
    Over the last 2 years, the competing factions within the 
ruling party, the African National Union-Patriotic Front, Zanu-
PF, engaged in a bitter and public power struggle aimed at 
determining President Mugabe's successor. Grace Mugabe's rise 
in power unsettled others in the party who derived their 
legitimacy from their ties to Zimbabwe's independence struggle. 
These dynamics led to then-Vice President Emmerson Mnangagwa's 
dismissal on November 6th. Military actions, purportedly in 
defense of President Mugabe, the party, and war veterans, 
followed.
    Over the next several days, the world watched as hundreds 
of thousands of Zimbabweans marched in the streets and 
parliamentary impeachment proceedings began. Mugabe resigned on 
November 21st, ending his 37 years of rule.
    The rapid turn of events appears to have unified the people 
of Zimbabwe around a sense of hope and possibility for the 
future. The change in government also offers an opportunity for 
reform that could allow the United States to reengage in ways 
we have not recently been able to do. In support of the people, 
we will expect to see genuine economic and political reform, 
including free and fair elections in 2018 in accordance with 
Zimbabwe's constitution.
    U.S. engagement with newly inaugurated President Mnangagwa 
and his administration must be based on demonstrated behavior 
not merely rhetorical intentions. President Mnangagwa has a 
window of opportunity to demonstrate his commitment to a 
democratic, just, healthy, and prosperous Zimbabwe. Our policy 
of reengagement will focus on constitutional democracy, free 
and fair elections, respect for human rights and the rule of 
law, and an improved trade and investment climate, among other 
issues. The country has a strong civil society and an 
experienced political opposition whose voices must count in 
charting a path forward.
    The military needs to return to its barracks and state 
institutions should be demilitarized. Perpetrators of abuses 
against civilians should be held accountable regardless of 
party affiliation. The government must engage in hard economic 
reforms, including addressing budget deficits, reforming the 
Indigenization Act, and reducing corruption. We will want to 
see improved protection of fundamental freedoms, a freer media, 
and a truth and reconciliation process. The people of Zimbabwe 
deserve these reforms and many more.
    We welcome President Mnangagwa's statement of intent to 
carry out economic reforms made during his inauguration speech, 
and we are assessing the budget released last week. We believe 
critical political reforms deserve equal attention and cannot 
wait. In particular, elections must be free, fair, credible, 
and inclusive, allowing Zimbabweans to choose their own 
leaders. Everyone in Zimbabwe should enjoy the right to 
peaceful assembly without undue interference and to voice their 
opinions and their vote without fear.
    We are working closely with international partners in 
Harare and our respective capitals. Similarly, the State 
Department will continue to consult with Congress, the White 
House, and other agencies on our policies regarding Zimbabwe. 
If President Mnangagwa wants improved diplomatic relations and 
access to international assistance and cooperation, 
particularly with the United States, his government must first 
implement reforms.
    The United States stands ready to help the government and 
people of Zimbabwe to achieve these goals. U.S. private sector 
members are eager for improvements in the business climate that 
will encourage them to invest and trade. They see promise in 
agriculture, tourism, energy, and mining. People-to-people 
exchanges are important as well. We will continue using our 
vibrant exchange programs to foster a better understanding of 
the United States amongst Zimbabwe's future leaders and vice 
versa. We will continue to encourage Zimbabwe's highly educated 
populace to study in the United States. And we will strengthen 
internal networks that build professional savvy and 
entrepreneurial skills.
    We believe in a stable, peaceful, prosperous, and 
democratic Zimbabwe that reflects the will of its people and 
provides for their needs.
    Thank you very much, and I welcome the opportunity to 
answer the committee's questions.
    [Ambassador Sullivan's prepared statement follows:]


             Prepared Statement of Hon. Stephanie Sullivan

    Chairman Flake, Ranking Member Booker, and distinguished members of 
the committee, thank you for the invitation to testify today on 
Zimbabwe.
    The historic turn of events, featuring Robert Mugabe's resignation, 
offers an extraordinary opportunity for Zimbabwe to set itself on a new 
path. Today, I provide this testimony to discuss our bilateral 
relationship, the events leading to the transition, and the U.S. 
position on future engagement.
    Looking back over the last two decades, the U.S. relationship with 
the Zimbabwean Government has been tense. The Government's repeated 
violations of its citizens' human rights, its catastrophic economic 
mismanagement, and widespread corruption were obstacles, making it 
difficult to engage effectively to address Zimbabwe's challenges. 
Deeply flawed elections in 2008 and 2013 further entrenched political 
divides in the country, diverting attention from much-needed reform.
    Despite a tense bilateral relationship with the Government of 
Zimbabwe, the United States has maintained a strong relationship with 
the Zimbabwean people. Since Zimbabwe's independence in 1980, we have 
provided significant development assistance in the areas of health, 
food security, education, and economic opportunity for citizens. Today, 
our assistance builds resilience by helping millions of Zimbabwe's 
people battle HIV/AIDS, tuberculosis, malaria, food insecurity, 
malnutrition, landmines, and human trafficking. Additionally, civil 
society programs bolster civic participation to advance democracy, 
human rights, and governance. These programs are critical in enabling 
Zimbabweans to hold their government accountable. None of our foreign 
assistance involves direct funding to the Government of Zimbabwe.
    Over the last two years, competing factions within the ruling 
party--the Zimbabwe African National Union-Patriotic Front (ZANU-PF)--
engaged in a bitter and public power struggle aimed at determining 
President Mugabe's successor. Grace Mugabe's rise in power unsettled 
others in the party who derived legitimacy from their ties to 
Zimbabwe's independence struggles. These dynamics led to then-Vice 
President Emmerson Mnangagwa's dismissal on November 6 and military 
actions purportedly in defense of President Mugabe, the party, and war 
veterans shortly after.
    Over the next several days, the world watched as hundreds of 
thousands of Zimbabweans marched in the streets and parliamentary 
impeachment proceedings began. Mugabe resigned on November 21, ending 
his 37 years of rule.
    The rapid turn of events appears to have unified the people of 
Zimbabwe around a sense of hope and possibility for the future. The 
change in government also offers an opportunity for reform that could 
allow the United States to re-engage in ways we have not recently been 
able to do. In support of the people, we will expect economic and 
political reform, including free and fair elections in 2018 according 
to Zimbabwe's constitution.
    U.S. engagement with newly-inaugurated President Mnangagwa and his 
administration must be based on demonstrated behavior, not rhetorical 
intentions. President Mnangagwa has a window of opportunity to 
demonstrate his commitment to a democratic, just, healthy, and 
prosperous Zimbabwe. Our policy of re-engagement will focus on 
constitutional democracy, free and fair elections, respect for human 
rights and the rule of law, and an improved trade and investment 
climate, among other issues. The country has a strong civil society and 
experienced political opposition, and their voices must count in 
charting a path forward.
    We must judge the new administration on its current and future 
actions. Along the way, there will be many actions that we will need to 
assess, as we look to re-engage. We will need to see free and fair 
elections. The military needs to return to its barracks and state 
institutions should be demilitarized. Perpetrators of abuses against 
civilians should be held accountable regardless of party affiliation. 
The Government must engage in hard economic reforms, including 
addressing budget deficits, reforming the Indigenization Act, and 
reducing corruption. We will want to see improved protection of 
fundamental freedoms, a freer media, and a truth and reconciliation 
process. The people of Zimbabwe deserve these reforms, and many more.
    We welcome President Mnangagwa's statement of intent to carry out 
economic reforms during his inauguration speech, and we are assessing 
the budget that was released last week. We believe critical political 
reforms deserve equal attention and cannot wait. In particular, 
elections must be free, fair, credible, and inclusive, allowing 
Zimbabweans to choose their own leaders. Everyone in Zimbabwe should 
enjoy the rights to peaceful assembly without undue interference and to 
voice their opinions--and their vote--without fear.
    We are working closely with international partners in Harare and in 
our respective capitals. Similarly, the State Department will continue 
to consult with Congress, the White House, and other agencies on our 
policies with respect to Zimbabwe. If President Mnangagwa wants 
improved diplomatic relations and access to international assistance 
and cooperation, particularly from the United States, it is our 
position that his government must first implement reforms.
    The United States stands ready to help the Government and the 
people of Zimbabwe to achieve their goals. U.S. private sector members 
are eager for improvements in the business climate that will encourage 
them to invest and trade. They see promise in agriculture, tourism, 
energy, and mining. People-to-people exchanges are important connectors 
as well. We will continue utilizing our robust and vibrant exchange 
programs to foster a better understanding of the United States amongst 
Zimbabwe's future leaders, and vice versa. We will continue to 
encourage Zimbabwe's highly educated populace to study in the United 
States. We will strengthen internal networks that build professional 
savvy and entrepreneurial skills.
    We believe in a stable, peaceful, and democratic Zimbabwe that 
reflects the will of its people and provides for their needs.
    Thank you very much. I welcome the opportunity to answer the 
committee's questions.


    Senator Flake. Thank you, Ms. Sullivan.
    Let me start out. You mentioned that our relationship with 
the new president and the new government will be based on 
reforms that they have undertaken and on behavior and not just 
rhetoric. What do you make of the moves so far with regard to 
assembling a new government and cabinet?
    Ambassador Sullivan. As the committee has pointed out, the 
government is composed of many people who were previously in 
the government. So it is a bit disappointing to see a lack of 
opposition members, although it is not 100 percent clear that 
opposition members were ready to participate in the current 
government. We will look to engage with the government to 
continue to press for actual implementation of some of these 
rhetorical signs of improvement in both the economic and 
political sphere.
    Senator Flake. Taking a step back, the Zimbabwe military 
went to great lengths to try to explain that this was not a 
coup, but rather a military realignment or some type of 
realignment. What are we calling it as far as the State 
Department goes?
    Ambassador Sullivan. Clearly there was military involvement 
in events that led up to the resignation of President Mugabe. 
We have not labeled it a coup. This is a very technical term 
that our lawyers and others are looking at at the moment. 
Normally if it is determined a coup, it would trigger a cutoff 
of direct assistance to the government. At the moment, we have 
no direct financial assistance to the Government of Zimbabwe.
    Senator Flake. Usually it is a pretty good rule of thumb 
that when somebody dressed in fatigues who has just taken over 
the broadcast facilities gives a statement, that is usually 
what it feels like.
    With regard to the changes that need to be made, we have an 
outsized influence, obviously, at the IMF, World Bank. What do 
we plan to do with regard to--there will be efforts made by 
some outside governments and organizations to relieve some of 
the sanctions and to free up money or funding in the coming 
months. What will be our position?
    Ambassador Sullivan. While we are engaging with the new 
government with an open mind, it is not enough to say it is a 
new government, so therefore none of the sanctions or 
restrictions that were previously in place should apply. We 
will continue to look for signs of actual implementation, for 
example, the election that is coming up. There are months and 
months of preparation that need to lead up to that, and we 
would be interested to see an openness or an invitation to send 
outside observers potentially as part of a group that might be 
led by an eminent African. And these are things that would need 
to happen fairly soon and could give some indication of the 
intentions beyond the nice speeches.
    Senator Flake. Do we have any documents yet or timelines 
that we have put forward or perhaps that we can look at that 
the opposition leaders or others have stated that need to 
happen in terms of by this date, voter rolls need to be 
complete; by this date, such and such has to come down? Is 
there anything that has been put together in that regard yet?
    Ambassador Sullivan. We have not seen an actual timeline 
leading up to the elections. There was encouraging news that 
the period for voter registration has been extended into 
February. We are looking at what a lot of members of civil 
society have put forth as requests or demands for the new 
government vis-a-vis actual democratic steps, and we are 
working very closely with our likeminded partners and trying to 
remain in sync with them both in Washington and Harare and 
other capitals.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. I am going to allow Senator Coons to go 
first.
    Senator Coons. Thank you, Senator Booker. Thank you, 
Chairman Flake.
    And thank you, Ambassador Sullivan. It is great to have an 
opportunity to talk with you and to the next panel about the 
transition underway in Zimbabwe and what the future might hold. 
As Senator Flake referenced, we met with former President 
Mugabe in February, 2016, and like many, I was very pleased to 
see him go after 37 brutal years. But I think it is critical 
that the people of Zimbabwe not see one dictator replaced by 
another. And so I, for one, am reluctant to see us take any 
steps to lighten or relieve sanctions or other international 
restrictions on loans or partnership until we see, as you 
suggested in your testimony, concrete steps by the 
administration of Emmerson Mnangagwa and any successors.
    So walk me through three things, if you would. What are the 
key milestones for us to watch for to get a sense of Emmerson 
Mnangagwa's capacity and willingness to enter significant 
reforms?
    Ambassador Sullivan. Thank you, Senator.
    As far as governance goes and respect for human rights, we 
would like to see immediate implementation of freedom of 
expression that has been lacking for decades in Zimbabwe, 
freedom of assembly. We are looking also for a free and 
responsible media, including social media, the preparations for 
the elections, as I mentioned, anticorruption. I believe they 
have given a 90-day window for people to return ill-gotten 
gains as an amnesty. Will that happen? Will corruption be 
pursued in an impartial way, in an apolitical way? How will 
things progress in terms of rule of law and due process? Those 
are on the governance side.
    On the economic side, the country is crumbling under 
crushing debt. We also have a very low doing-business 
environment there that is a deterrent. So we would like to see 
an improved investment climate. Since investors vote with their 
feet, they are watching very closely because there are 
potential opportunities there. But investors want to be able to 
repatriate their earnings. Again, the rule of law and a level 
playing field will be very important in the economic sphere as 
well.
    In addition, in the security sector, we would like to see 
the security sector earn the trust of the citizens, and that 
would include police reforms.
    Senator Coons. I was struck that the budget request for 
this year for Zimbabwe, if I understood correctly, dropped 
almost $60 million from the previous year and included no 
requests for democracy and governance programs. It is my 
expectation that there might be some reprogramming request or 
some increased willingness to partner with the robust civil 
society and free press that you referenced.
    What sort of role do you imagine that USAID and the State 
Department should play in the run-up to free and fair elections 
if we are genuinely making progress?
    Ambassador Sullivan. All of our influence is not 
necessarily tied up with the dollar figure. But to address that 
point, we do have some flexibility with some regional funds 
that we could target if we saw an opportunity that looked 
viable there. I think that our diplomats have a wonderful 
opportunity to use the bully pulpit, to coordinate with 
likeminded international partners, and also to continue 
engaging with civil society organizations with whom we may not 
be currently giving assistance but with whom we have cultivated 
relationships over the years because fundamentally this will be 
about the people of Zimbabwe and we want to support their 
aspirations for a country that can reach its full potential.
    Senator Coons. Last question. So China has long had an 
active role in Zimbabwe during the liberation struggle until 
now. What do you see as their influence in Zimbabwe compared to 
the United States? What do you see as their trajectory in 
Zimbabwe? And what do you think are their interests or their 
priorities compared to ours? I agree with you that this is 
essentially up to the people of Zimbabwe, and the actions that 
will determine their future will be taken by Zimbabweans. But 
it seems to me that this is a moment for the United States to 
show principled leadership, active engagement and interest. But 
I am wondering what another major influencer in this country 
has in mind for their short-term agenda as well.
    Ambassador Sullivan. Well, as throughout the continent, 
China is very interested in resource acquisition and, in their 
interactions with the various host governments, has taken a 
very hands-off approach in terms of what they might consider 
undue influence or foreign interference. So we do not expect 
there will be any change in terms of China's approach, but I 
think we have a window for the United States to engage in a way 
we have not been able to engage that will involve U.S. 
businesses, which of course are private and we cannot compel 
them to engage the way others perhaps have an opportunity with 
the state-owned enterprises to engage.
    Senator Coons. Well, thank you, Ambassador Sullivan.
    Thank you, Chairman Flake.
    I think you will see significant and sustained interest 
from members of this subcommittee and other committees of the 
Congress as we try and encourage and support a movement towards 
a genuinely open and democratic society in Zimbabwe.
    Thank you.
    Senator Flake. Thank you, Senator Coons.
    Senator Udall?
    Senator Udall. Thank you, Chairman Flake, and thank you for 
holding this important hearing. We really appreciate you being 
here.
    On November 17, 2017, the Department of the Interior 
published its determination that Zimbabwe was sufficiently 
stable to allow for the illegal importation of elephant 
trophies into the United States. This announcement was based on 
ratification of a new conservation plan in Zimbabwe in 2016. In 
the opinion, the trophy hunting adds to the overall 
conservation of the species.
    The announcement, however, coincided with the coup of 
former President Robert Mugabe and a transfer of power to his 
Vice President, underscoring the great instability in the 
region. Because of these events, the President tweeted that he 
would put the policy on hold, which I appreciate very much.
    Wildlife trafficking decimates iconic species while funding 
global terror organizations. The chairman of this committee and 
I have worked hard to stem the tide of poaching and illegal 
wildlife trafficking across the globe, and I am proud of our 
bipartisan work in the last Congress to provide agencies and 
international institutions the funding and tools necessary to 
stymie and interdict wildlife trafficking. But I worry that the 
current administration's findings for the elephant and the lion 
will undermine that progress.
    Do you believe that Zimbabwe has adequate institutional 
controls to properly manage wildlife?
    Ambassador Sullivan. That decision is currently being 
reviewed at the Fish and Wildlife Service in the Department of 
the Interior.
    As far as the stability or not at the moment, we are taking 
very much a wait-and-see approach, but we are not sitting on 
our hands, staying home. We are engaging actively with members 
of the new government, with civil society, with other 
influential actors on the ground. So I think the answer to that 
would be it is too early to say what the level of stability is.
    Senator Udall. And do you believe that in this period of 
upheaval, the government can regulate hunting of iconic 
species, including lions and elephants, in a manner that will 
prevent illegal wildlife trafficking?
    Ambassador Sullivan. While there has been upheaval, there 
also seems to be a great deal of continuity, if you look at the 
cabinet that is currently in place. So at this point, again, I 
would say that we are going in with our eyes wide open and this 
remains an area that we look at in terms of U.S. policy and 
also what it might mean to the Zimbabwean ecotourism industry. 
And they are looking for diversification of the economy. They 
have an opportunity to increase the 50,000 or so American 
tourists who go there. So we are just going to have to wait and 
see regarding their ability to manage. And this might be part 
of security sector reforms that we could potentially look at.
    Senator Udall. Thank you for that answer. Media reports 
indicate that Zimbabwe's electoral commission chairperson, 
Justice Rita Makarau, resigned abruptly on Friday without any 
rationale. The press is speculating that she was pressured to 
resign, and opposition leader Morgan Tsvangirai said that 
Makarau's resignation had opened a can of worms.
    What do you know about her successor and whether the change 
in leadership of the commission will make credible elections 
next year more or less likely?
    Ambassador Sullivan. Senator, I would like to take that 
question back and respond for the record.
    Senator Udall. That would be good.

    [The information requested had not been received when this 
hearing went to press.]

    Senator Udall. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. Thank you so much.
    So I am just trying to understand the administration's 
position given things that are going on right now. You have 
talked about a lot of reforms, that we are looking and waiting 
for reforms on this coming election and how important that is, 
a desire potentially to send election observers. You talked 
about reforms in government, talked about reforms in the mining 
industry.
    Could you just tell me a little bit more about what 
leverage you think we have to ensure that we can see--let us 
start with free and fair elections--to see that those elections 
happen. Is there any ways that you think we have to further 
leverage that or something that Congress could be doing?
    Ambassador Sullivan. I will take the latter part of that 
question first, if I may.
    We certainly welcome engagement of Congress and travel to 
the region, letters, engagement, and we will continue to work 
with you on the way forward.
    As far as the leverage, I think we see in place a new 
government that is eager to have a sense of legitimacy that the 
predecessor government lacked despite the fact that it is a lot 
of the same people. Again, it offers an opportunity that we 
would like to try to work with and induce in a positive 
direction.
    The country is having a severe economic crisis and that is 
another point of leverage that without the reforms, there will 
not be good things happening on the economic front.
    And then finally, we are very tightly latched up with our 
likeminded counterparts in country and having ongoing 
discussions with them about the preparations for the elections.
    Senator Booker. So can I interrupt you there?
    Ambassador Sullivan. Sure.
    Senator Booker. Because there have been reports that the 
British Government may consider extending a bridge loan to 
Zimbabwe in order to clear unpaid arrears and open up funding 
from the IMF and World Bank. Has the British Government given 
you an indication that they plan to do this?
    Ambassador Sullivan. We do not have any direct knowledge of 
that. We have seen some similar reporting. Acting Assistant 
Secretary Don Yamamoto was just in London this week. I am 
positive that Zimbabwe came up in the conversations. As far as 
I know, that specific angle did not come up, and we remain in a 
very united approach to this.
    Senator Booker. Okay. Great.
    The accountability for atrocities, which is I think 
something that--I am sure you agree--is of profound importance. 
Tens of thousands have been killed in numerous, unfortunately, 
raids and operations and massacres. Church groups have 
documented an alarming record of government-sponsored 
atrocities before the 2008 elections. We see the State 
Department said in 2000 that Mnangagwa was widely feared and 
despised throughout the country--that is the State Department's 
words--and could be an even more repressive leader than Mugabe.
    And so I understand that you are sort of having a wait-and-
see and see if we can have inducements. But clearly when it 
comes to accountability for atrocities, if there seems to be so 
much compelling evidence that this is someone that participated 
in this, how do you level that with our policies towards this 
new administration?
    Ambassador Sullivan. Well, one of the things we will be 
looking for is for the people and the Government of Zimbabwe to 
organize some sort of a truth and reconciliation process so 
that they can work through these traumas of the past.
    As far as President Mnangagwa, he remains under U.S. 
sanctions. And again, this is the government that is in front 
of us right now, and we are going to try to work to engage 
positively. He, in his inauguration speech, really wanted 
people to look forward and forget about the past. We are not 
going to forget about the past. We are going to keep that in 
mind as we deal with him and other members of the government, 
but again, not just appeal to their better natures but try to 
help the government and the people of Zimbabwe move forward 
beyond this very, very dismal past track record of human 
rights.
    Senator Booker. Just, you know, be candid with me, if you 
can, to expect a government led by someone who participated and 
was responsible for horrific violations, horrific human rights 
atrocities, to expect there to be a real truth and 
reconciliation coming from a government led by someone who has 
a record that from our own State Department seems to be so 
horrific--should we really be expecting there to be a real 
truth and reconciliation process?
    Ambassador Sullivan. Well, we certainly do not believe this 
will be a spontaneous course of action without a great deal of 
pressure and discussion, and it is not just the United States. 
It is also, as I mentioned earlier, the likeminded partners and 
a very active civil society. There were so many people out in 
the streets celebrating the prospect of a new Zimbabwe. They 
have high expectations, and we think in some ways maybe not 
dramatically yet but the lines have moved and the kinds of 
oppression that people felt obliged to withstand in the 
predecessor regime--I think that it has been a bit of a game 
changer despite the fact that it is a lot of the same people 
who are running the show at this point.
    Senator Booker. Thank you, Mr. Chair.
    Senator Flake. Thank you, Ambassador Sullivan, for your 
testimony. We will now turn to our other panel and give them a 
few minutes. We will recess for just 2 minutes while the new 
panel comes. I appreciate the answers you have given today.
    Ambassador Sullivan. Thank you.
    [Recess.]
    Senator Flake. This hearing of the Senate Foreign Relations 
Subcommittee on Africa and Global Health will now come back to 
order.
    The subcommittee has just heard testimony from Principal 
Deputy Assistant Sullivan representing the administration's 
view. Now we will hear from the second panel, each of whom has 
deep personal experience with Zimbabwe. In this group, we have 
an award winning journalist, a former government minister, and 
an NGO activist. All have raised their voices in opposition to 
Robert Mugabe and the Zimbabwean Government using different 
platforms. All have deep roots in Zimbabwe. Two of the 
witnesses were in Zimbabwe during the military takeover. One is 
a former constitutional lawyer. Two have been human rights 
attorneys. All have strong personal interests, obviously, in 
Zimbabwe's future and are using their unique talents to raise 
awareness of the issues and to change lives in Zimbabwe.
    First we will turn to Peter Godwin, award winning 
journalist, best selling author, documentary filmmaker. He has 
written extensively about his own experiences growing up in 
Zimbabwe and of human rights abuses committed under Mugabe's 
leadership with the support of the new President, Emmerson 
Mnangagwa.
    Tendai Biti is currently a key opposition leader in 
Zimbabwe. He served as Zimbabwe's minister of finance from 2009 
to 2013 as part of the Government of National Unity. He was a 
secretary-general of the Movement for Democratic Change and is 
now president of the People's Democratic Party. As a former 
finance minister, Mr. Biti is uniquely poised to address 
economic and corruption issues in Zimbabwe.
    Last but not least, Dewa Mavhinga is Southern Africa 
Director of the Africa Division of Human Rights Watch. In 2012, 
he co-founded the Zimbabwe Democracy Institute, a public policy 
research think tank in Harare. Mr. Mavhinga was also in 
Zimbabwe during the military takeover, updating a wide audience 
via Twitter on the events there.
    With that, we will recognize Mr. Godwin.

             STATEMENT OF PETER GODWIN, AUTHOR AND 
                    JOURNALIST, NEW YORK, NY

    Mr. Godwin. Thank you, Chairman Flake, Ranking Member 
Booker, and other members. Thank you for inviting us and for 
being interested in Zimbabwe in a world where I am sure you 
have many other things to distract you right now.
    Just before dawn on November the 14th, General Sibusiso 
Moyo of the Zimbabwe National Army went onto state television 
to announce that Robert Mugabe was under house arrest. Mugabe's 
37-year reign--he was Zimbabwe's only leader since independence 
in 1980--was over. Zimbabweans soon poured out onto the streets 
to celebrate.
    Mugabe had been unseated by an internal faction fight 
within his ruling Zanu-PF party. It was not primarily 
ideological or even ethnic. It was essentially a family feud on 
steroids, and it pitted old against young. His wife Grace, who 
made a bid to succeed him, is 41 years his junior, too young to 
have fought in the liberation war, hitherto a sine qua non for 
leadership of most southern African liberation parties. Her 
attempt to create a dynastic succession, a la Evita Peron, 
Imelda Marcos, or Madam Mao, proved premature.
    Over his 37 years in power, Mugabe had hollowed out Zanu-
PF, reducing it to a personality cult by getting rid of anyone 
who challenged his authority.
    But Grace overreached when she persuaded her increasingly 
enfeebled husband to fire his Vice President Emmerson 
Mnangagwa, her main rival. This was too much for the military 
leadership who had close ties to Mnangagwa as he had held 
defense and intelligence portfolios for much of his ministerial 
career.
    I think you can expect Mnangagwa to be strongly in hock to 
the military who, after all, elevated him to the presidency. In 
the end, this was a continuity coup to protect the power of the 
party's old guard.
    General Moyo, who announced the coup, is the new foreign 
minister, the country's official interlocutor with the world. 
Air Marshal Perrance Shiri is promoted to the cabinet too. He 
was the officer commanding 5th Brigade at the time of the 
Matabeleland massacres in the early 1980s. And it is speculated 
that General Constantino Chiwenga, head of the Zimbabwe 
National Army and architect of the coup, may be named Vice 
President. Even if not, he will continue to be the power behind 
the throne, the king-maker.
    The veterans of the liberation war for independence are 
once again ascendant too. Their leader, Chris Mutsvangwa, has 
been named as special advisor to the new president.
    And what are we to make of the new president? You should 
expect Mnangagwa to entice his own people and the world with a 
reformist stance. He will try to rebrand the party, presenting 
it as Zanu-PF 2.0, Zanu-PF lite, non-ideological, technocratic, 
managerial, open for business, safe once more for foreign 
investors. He has already mentioned a partial return of land to 
some white commercial farmers. He has embraced the rhetoric of 
anticorruption, offering a 3-month amnesty window to return 
ill-gotten gains.
    But these promises do not stand up to scrutiny.
    What, for example, of his own corruption and that of many 
of the new cabinet--8 of the 22 are on the U.S. sanctions 
list--joined by bonds of massively corrupt self-enrichment and 
repressive political violence? For them to put distance between 
who they now purport to be and their nearly four-decade record 
in office is preposterous. And for Zimbabweans, as well as the 
international community, to believe this is to fall for a Zanu-
PF confidence trick, a survival bait and switch.
    Zanu-PF has long been a vampiric entity, sucking the blood 
from the nation. Mnangagwa is 75 years old. He is most unlikely 
to undergo a benign metamorphosis. He has been at the very 
center of Zanu-PF's repressive security web, until recently 
Mugabe's trusted consiglieri. He headed the feared Central 
Intelligence Organization, the CIO, at the time of the 
Matabeleland massacres, during which upwards of 20,000 
civilians were killed. And he rolled out the terrible reprisal 
campaign during the post-2008 election violence when thousands 
of opposition supporters were badly tortured and more than 200 
killed. All of these and more besides were carried out by this 
same political party, kleptocratic, violent, repressive.
    What are the alternatives for Zimbabweans in the 2018 
elections? You have before you today a senior member of the 
main opposition party, the MDC, so I will defer to him to 
summarize his own party's current status.
    However, opposition fragmentation is enormously beneficial 
to Zanu-PF, allowing it a real possibility of winning at the 
polls even if opposition parties attract more votes overall. 
For the opposition, it is, therefore, imperative to unify or at 
least broker electoral pacts. It is also crucial that the 
elections are free and fair and perceived as such by the 
electorate. Zanu-PF has a long precedent of electoral foul 
play.
    If this is to be avoided in 2018, external monitoring will 
be essential. It is quite inadequate for observers to parachute 
into Zimbabwe shortly before the poll. There must be a 
persistent presence on the ground long, long before that, as 
registration procedures need to be scrutinized.
    In conclusion, if we reward Mnangagwa's ``same as it ever 
was'' Zanu-PF for its internal coup, for example, by 
prematurely dropping individual sanctions, we would help cement 
the culture of impunity that already infects Zimbabwe, where 
the perpetrators never face the consequences of their actions 
and where real freedom and reform remain elusive.
    Thank you.
    [Mr. Godwin'prepared statemenmt follows:]


                  Prepared Statement of Peter Godwin.

               zimbabwe's future--the state of governance
                      after military intervention

    Just before dawn on November 14th, General Sibusiso Moyo of the 
Zimbabwe National Army went onto state television to announce that 
Robert Mugabe, was under house arrest. His 37-year reign, Zimbabwe's 
only leader since independence in 1980, was over. Zimababweans soon 
poured out into the streets to celebrate.
    Mugabe had been unseated by internal faction fighting within his 
ruling Zanu-PF party. It wasn't primarily ideological or ethnic, it was 
a family feud on steroids, it pitted old against young. His wife Grace 
made a bid to succeed him. Forty-one years his junior--she was too 
young to have fought in the liberation war, hitherto a sine qua non for 
leadership of southern African liberation parties. Her attempt to 
create a dynastic succession, a la Evita Peron, Imelda Marcos (with 
whom she shared a penchant for shoes, favoring Ferragamo because her 
feet were ``too narrow for anything else''), or Madam Mao, proved 
premature, and it triggered her husband's political demise.
    Over those years Mugabe had hollowed out Zanu-PF, reducing it to a 
personality cult by getting rid of anyone who challenged his authority, 
until he was attended only by fawning party punkah wallahs, fanning his 
ego, prancing around in ludicrous regalia bearing his image, as though 
he were a religion.
    Ultimately Grace over-reached when she persuaded her increasingly 
enfeebled husband to fire vice president Emmerson Mnangagwa, her main 
rival. This was too much for the military leadership who had close ties 
to Mnangagwa, as he held defense and intelligence portfolios for much 
of his ministerial career.
    I think you can expect Mnangagwa to be strongly in hock to the 
military who, after all, elevated him to the presidency. In the end, 
this was a ``continuity coup,'' to protect the power of the party's old 
guard.
    General Sibusiso Moyo, who announced the coup, is the new foreign 
minister, the country's official interlocutor with the world. Air 
Marshal Perrance Shiri is elevated to the cabinet too. He was the 
officer commanding 5th Brigade at the time of the Matabeleland 
massacres, in the early 1980s. And it's speculated that General 
Constantino Chiwenga, head of the Zimbabwe National Army, and architect 
of the coup, may be named vice president. Even if not, he will continue 
to be the power behind the throne, the king-maker.
    The veterans of the Liberation war for independence are once again 
ascendant too. Their leader, Chris Mutsvangwa, has been named as 
special advisor to the new president. Last time the war vets made their 
weight felt, Mugabe had to buy them off with ex gratia payments. 
Unbudgeted for, these payments cascaded through the economy resulting 
in the highest hyper-inflation the world has ever seen. By the end the 
Zimbabwe dollar was almost halving in value every 24 hours.
    What are we to make of the new President? You should expect 
Mnangagwa to entice his own people and the world with a ``reformist 
stance.'' He will try to rebrand the party, presenting it as Zanu-PF 
2.0, Zanu-PF-lite, non-ideological, technocratic, managerial, open for 
business, safe once more for foreign investors. He has already 
mentioned a partial return of land to some white commercial farmers, he 
has embraced the rhetoric of anti-corruption, offering a three-month 
amnesty window to return ill-gotten gains.
    But these promises don't stand up to scrutiny.
    What, for example, of his own corruption, and that of many of his 
new cabinet--8 of the 22 are on U.S. sanctions list--joined by bonds of 
massively corrupt self-enrichment, and repressive political violence? 
For them to put distance between who they now purport to be, and their 
nearly four-decade record in office, is preposterous. And for 
Zimbabweans both within the country and in the diaspora, as well as the 
international community, to believe this, is to fall for a Zanu-PF 
confidence trick, a survival bait-and-switch.
    Zanu-PF has long been a vampiric entity, sucking the blood from the 
nation. Mnangagawa is 75 years-old. He is most unlikely undergo a 
benign metamorphosis. He has been at the very center of Zanu-PF's 
repressive security web, until recently Mugabe's trusted consiglieri. 
He headed the feared Central Intelligence Organization, the CIO, at the 
time of the Matableland massacre, during which upwards of 20,000 
civilians were killed. And he rolled out the terrible reprisal campaign 
during the post-election violence of 2008, when thousands of opposition 
supporters were badly tortured and more than 200 killed. All of these 
and more besides, were carried out by this same political party, 
kleptocratic, violent, repressive.
    What are the alternatives for Zimbabweans in the 2018 elections? 
You have before you today a senior member of the main opposition party, 
the MDC, so I will defer to him to summarize his own party's current 
status. However, in general, Zimbabwe's opposition is more divided than 
ever before. There are currently more than twenty separate parties, ten 
of them significant. And within the MDC, there are some tensions as its 
founding leader, Morgan Tsvangirai, has been seriously ill, and there 
is some pressure on him to stand down.
    This opposition fragmentation is enormously beneficial to Zanu-PF, 
allowing them a real possibility of winning at the polls even if 
opposition parties attract more votes between themselves. For the 
opposition it is, therefore, imperative to unify or at least broker 
alliances or electoral pacts. It's also crucial that the elections are 
free and fair, and perceived as such by the electorate. Zanu-PF has a 
long precedent of electoral foul play.
    If this is to be avoided in 2018, external monitoring will be 
essential. It is quite inadequate for observers to parachute into 
Zimbabwe shortly before the poll (recent approval of the Kenya 
elections tell a cautionary tale in this regard.) There needs to be a 
persistent presence on the ground long, long before that, as 
registration procedures need to be scrutinized.
    In conclusion, if we reward Mnangagwa's ``same as it ever was'' 
Zanu-PF for its internal coup, for example, by prematurely dropping 
individual sanctions, we would help cement the culture of impunity that 
already infects Zimbabwe, where the perpetrators never face the 
consequences of their actions, and where real freedom and reform remain 
elusive.


    Senator Flake. Thank you, Mr. Godwin.
    Mr. Biti?

     STATEMENT OF TENDAI BITI, FORMER FINANCE MINISTER AND 
              OPPOSITION LEADER, HARARE, ZIMBABWE

    Mr. Biti. Thank you, Chairman Flake, Ranking Member Booker, 
and other members of the subcommittee. I come here with my 
colleagues from the opposition alliance known as the MDC 
alliance. I travel with the Ona Rapor and Nelson Chamisa and 
Mr. Jocob Ngarivhume. We thank you for inviting us to this 
great center of American democracy.
    The 14th of November 2017 began a series of major life-
changing events in Zimbabwe that will forever redefine the 
political and constitutional landscape of our country.
    On that day, military tanks invaded the streets of the 
capital, Harare, and in the early hours of the 15th, the 
military captured Zimbabwe's broadcasting houses and made it 
clear implicitly that the executive was no longer in control.
    On 18th November, hundreds of thousands of Zimbabweans 
marched alongside military personnel in the streets of Harare 
and Bulawayo and demanded the resignation of President Mugabe. 
On 21 November, in the middle of impeachment proceedings in 
parliament, President Mugabe quietly, if not inelegantly, 
announced his resignation.
    With President Mugabe's departure, Zimbabwe now faces an 
uncertain future, but one which presents real opportunities for 
reconstructing, rebuilding, and refabricating a new Zimbabwean 
story and a new Zimbabwean society.
    Without a doubt, the 37 years of President Mugabe's rule 
were a sad story of capture, coercion, corruption, poverty, and 
de-legitimization. Zimbabweans lived in fear under a system 
that paid no respect to their rights and a system that saw 
continuous impoverishment and suffering, loss of livelihoods 
amongst ordinary citizens.
    President Mugabe presided over one of the most autocratic 
African regimes that stood head and shoulders with the likes of 
current dictators like Obiang in Equatorial Guinea, Biya in 
Cameroon, Isaias Afewerki in Eritrea, al-Bashir in Sudan, and 
Yoweri Museveni in Uganda.
    What we now need as a country is a genuine break from a 
tortured past and not a continuation of the old order. The new 
Zimbabwe, which the majority of people that marched on the 18th 
of November, 2017 crave for has to be founded on the values and 
principles of constitutionalism, the rule of law, a just and 
prosperous society. And in the new Zimbabwe, every citizen must 
be free to pursue life, liberty, and happiness.
    And we contend, Mr. Chairman, that our country is in the 
middle of a transition, a transition from a very unhappy regime 
for 37 years of the torture and pain that I have described 
above. But like any transition, it can be a captured 
transition. It can be a derailed transition. It can be a 
hijacked transition. That is not what the thousands and 
thousands of people who marched on the 18th of November, 2017 
are seeking for. Those people who marched in Harare, in 
Bulawayo, in New York, in Cape Town, in Johannesburg are 
looking for a fresh start, a genuine transition to a new 
Zimbabwean society.
    But what is the precondition to move to this genuine 
transition? In our view, the starting point must be a return to 
true legitimacy, constitutionalism, and the rule of law. The 
road map to legitimacy is the fundamental precondition to the 
establishment of a sustainable, just, and free Zimbabwe. This 
road map must be anchored on clear benchmarks.
    These include, number one, the immediate restoration of 
constitutionalism, the rule of law, and legitimate civilian 
rule. The military must be demobilized from the streets.
    Number two and very importantly, the implementation of 
genuine electoral reforms to ensure that the election of July-
August 2018 is free, fair, credible, and legitimate. Those 
electoral reforms must include, number one, the preparation of 
a brand new biometric voters' roll to which all political 
parties sign onto and agree to.
    Number two, agreement on an independent electoral 
management body, particularly in the post-math of the 
resignation of the ZEC chairperson, Justice Rita Makarau.
    Number three--and this is very important--the introduction 
of a diaspora vote. Zimbabwe has more than 4 million of its 
citizens that are in the diaspora. And in terms of section 67 
of our constitution, they have the right to vote and that right 
to vote must be respected.
    Number four, the introduction of international observation 
and poll monitors, who must come into Zimbabwe months before 
the election as opposed to the current practice where a few 
African observers come into Zimbabwe a few days before the 
election and they enjoy the fine hospitalities at the few 
remaining fine hotels in Zimbabwe.
    Number five, we consider that there must be a defined role 
of the UN and its agencies in our electoral process. There must 
be full access to the media. There must be a safe environment 
for campaigning and voting, which is free from intimidation. 
And naturally there must be a repeal of the notorious Public 
Order and Security Act, the Access to Information and 
Protection Act, AIPPA.
    Number three, there must be political and institutional 
reforms, which include aligning the country's laws with the 
2013 constitution, and in particular actualizing the provisions 
dealing with devolution and the land question.
    Number four, there must be a modicum of economic reforms 
that focus on macroeconomic stability, growing a shared 
economy, and addressing the huge challenge of unemployment and 
under-development.
    Number five--and this is very key--given the levels of 
intolerance, the destruction of the social fabric of our 
country, we contend that there must be the restoration of the 
social contract, including the renewal and rebirth of a new 
Zimbabwe that shuns corruption and promotes national healing 
and reconciliation.
    The above road map must be guaranteed and underwritten by 
the international community. In this regard, the role of the 
African Union and the United Nations will be critical.
    It will also be important for us as the opposition to give 
the people of Zimbabwe a genuine chance. It is important that 
we continue with the path of unity that we have demonstrated 
and are demonstrating back at home and that we put on the table 
programs that will address the fundamental challenges facing 
our people. And I am glad to say, Mr. Chairman, that this is 
exactly what we are doing.
    We also contend that the new authorities must show some 
signs of a commitment to real transformation other than 
cosmetic statements on the economy. The real danger is that 
they will pursue a Beijing model, in the respect of which there 
are nominal improvements on the economy while political space 
is closed and democracy is muzzled. It is, therefore, important 
that the new authorities show signs of commitment to real 
change.
    They could, for instance, begin by openly acknowledging and 
apologizing for the major human rights abuses of the past 4 
decades, in particular, Gukurahundi, the cleanup operation 
known by the moniker Operation Murambatsvina, and the vicious 
2008 election violence in the respect of which thousands of 
opposition and ordinary citizens were victimized.
    They could, for instance, order an inquiry into the 
disappearance of human rights activists, including Patrick 
Nabanyama and Itai Dzamara.
    They could, for instance, mollify many Zimbabweans by 
ordering a judicial inquiry into Zimbabwe's missing diamond 
revenues, estimated to be around $15 billion.
    Mr. Chairman, we have lost a lot of time in Zimbabwe 
fighting amongst ourselves. One hopes that the fresh beam of 
light that we saw on 18 November 2017 becomes a permanent 
bright shining star that shows us the path forward. Zimbabweans 
must fix our own country and repair the wounds of the past. But 
we cannot do this alone.
    As Zimbabwe begins this quest for transformation, it shall 
need the support of the international community, including the 
United States and Congress in particular, at this critical 
stage.
    We know that this struggle has been long and difficult, but 
we are confident that we will complete what we in the Movement 
for Democratic Change alliance started in 1999 when we formed 
the MDC.
    Thank you very much, Mr. Chairman.
    [Mr. Biti's prepared statement follows:]


                   Prepared Statement of Tendai Biti

        zimbabwe at the crossroads: a chance for a new beginning

    Thank you, Chairman Flake, Ranking Member Booker, and other members 
of the subcommittee. We thank you for inviting us to this great center 
of American democracy.
    The 14th of November 2017 began a series major life changing events 
in Zimbabwe that will forever redefine the political and constitutional 
landscape of the country.
    On that day, military tanks invaded the streets of the capital, 
Harare, and other major cities in the country. In the early hours of 
the 15th, the military appeared on Zimbabwe's sole national television 
and implicitly made it clear that the executive was no longer in 
control.
    On 18th November, hundreds of thousands of Zimbabweans marched 
alongside military personnel in the streets of Harare and Bulawayo and 
demanded the resignation of President Mugabe. On 21 November in the 
middle of impeachment proceedings in parliament, President Mugabe 
quietly, if not in-elegantly, announced his resignation.
    With President Mugabe's departure, Zimbabwe now faces an uncertain 
future, but one which presents real opportunities for reconstructing, 
rebuilding and re-fabricating a new Zimbabwean story, and a new 
Zimbabwean society.
    Without a doubt, the 37 years of President Mugabe's rule were a sad 
story of capture, coercion, corruption, poverty and de-legitimization. 
Zimbabweans lived in fear under a system that paid no respect to their 
rights and a system that saw continuous impoverishment and suffering, 
loss of livelihoods amongst ordinary citizens.
    President Mugabe presided over one of the most autocratic African 
regimes that stood head and shoulders with the likes of current 
dictators like Obiang in Equatorial Guinea, Biya in Cameroon, Afewerki 
in Eritrea, al-Bashir in Sudan, and Museveni in Uganda.
    Let's be clear: the events in Zimbabwe described above were an 
illegal and illegitimate transfer of power from one faction of the 
ruling party to another.
    However, this was not the first time that the military in Zimbabwe 
and the so-called "securocrats" have subverted constitutional order in 
a way that merely entrenched un-democratic rule.
    For instance, on the eve of the presidential election in March 2002 
the top army generals of Zimbabwe led by then commander of the Zimbabwe 
Defense Forces Major-General Zvinavashe issued a public statement in 
which it was announced that they would never salute a leader who did 
not have liberation war credentials. An obvious position meant to 
target Morgan Tsvangirai, the leader of the democratic opposition.
    In June 2008, pursuant to a victory of the MDC in the March 2008 
election the military staged a pre-emptive military coup that literally 
prevented political opposition leader Morgan Tsvangirai and the MDC 
from taking over, installing President Mugabe as president of the 
republic.
    November 2017 now represents a third occasion of a revolt against 
the constitution, but this time, marked with the popular removal of an 
unpopular president.
    Despite the illegalities of the November 2017 processes, Zimbabwe 
now has the obligation of ensuring that there's a major shift and 
fundamental departure from a past of division, attrition and fear.
    Zimbabwe needs a genuine break from its tortured past, not a 
continuation of the old order. The new Zimbabwe, to be established now, 
need to be founded on the values and principles of constitutionalism, 
the rule of law, a just and prosperous society. In the new Zimbabwe, 
every citizen must be free to pursue life, liberty, and happiness.
    The starting point must be a return to true legitimacy, 
constitutionalism, and the rule of law. The roadmap to legitimacy is 
the fundamental precondition to the establishment of a sustainable, 
just, and free Zimbabwe. This roadmap must be anchored on clear 
benchmarks. These include:

 1. The immediate restoration of constitutionalism, the rule of law, 
        and legitimate civilian rule. The military must be demobilized 
        from the streets.
 2. Implementation of genuine electoral reforms to ensure that the 
        election in July-August 2018 is free, fair, credible, and 
        legitimate. Those electoral reforms, including: the preparation 
        of a brand new biometric voters' roll to which all political 
        parties sign onto; agreement on an independent electoral 
        management body; the introduction of a diaspora vote; 
        international observation and poll monitors; defined role of 
        the UN and its agencies; full access to media; and a safe 
        environment for campaigning and voting free from intimidation.
 3. Political and institutional reforms, which include aligning the 
        country's laws with the 2013 constitution, and in particular 
        actualizing the provisions dealing with devolution and the land 
        question.
 4. Major economic reforms that focus on restoring livelihoods, growing 
        a shared economy and addressing the huge challenge of 
        unemployment and under-development.
 5. Restoring the social contract, including the renewal and rebirth of 
        a new Zimbabwe that shuns corruption and promotes national 
        healing and reconciliation.

    The above road map must be guaranteed and underwritten by the 
international community. In this regard, the role of the African Union 
and the United Nations will be critical.
    The new authorities must show some signs of a commitment to real 
transformation other than cosmetic statements on the economy.
    The real danger is that they will pursue a Beijing model, in the 
respect of which there are nominal improvements on the economy while 
political space is closed and democracy is muzzled.
    It is therefore important that the new authorities show signs of 
commitment to real change.
    They could, for instance, begin by openly acknowledging and 
apologizing for the major human rights abuses of the past four decades, 
in particular the massacres in Matabeleland known as Gukurahundi, the 
illegal and inhumane urban land clearances of Operation Murambatsvina, 
and the vicious 2008 post election violence against the opposition and 
ordinary citizens.
    They could for instance order an inquiry into the disappearance of 
human rights activists, including Patrick Nabanyama and Itai Dzamara, 
who has been missing since March 2015.
    Authorities could for instance mollify many Zimbabweans by ordering 
a judicial inquiry into Zimbabwe's missing diamond revenues, estimated 
to be around $15 billion.
    We have lost a lot of time in Zimbabwe, fighting amongst ourselves. 
One hopes that the fresh beam of light that we saw on 18 November 2017 
becomes a permanent bright shining star that shows us the path forward. 
Zimbabweans must fix our own country and repair the wounds of the past. 
But we can't do this alone.
    As Zimbabwe begins this quest for transformation, it will need the 
support of the international community, including the United States and 
Congress in particular, at this crucial stage.
    We ask the international community and the U.S. to keep us in your 
hearts. Do not allow our country to be forgotten in our battle against 
tyranny and poverty and for democracy and human rights. Our election 
requires active support and oversight from the international community, 
including our American friends.
    Further, once we show signs of an irrevocable and irreversible 
trajectory towards legitimacy, democracy, and the rule of law, we shall 
require your full support as we re-engage key international 
institutions.
    We know that this struggle has been long and difficult. But we are 
confident that we will complete what we started in 1999 when we formed 
the Movement for Democratic Change with the aspiration of establishing 
a truly democratic, just, and free Zimbabwe.
    Thank you. Zikomo.


    Senator Flake. Thank you.
    Mr. Mavhinga?

  STATEMENT OF DEWA MAVHINGA, SOUTHERN AFRICA DIRECTOR, HUMAN 
            RIGHTS WATCH, JOHANNESBURG, SOUTH AFRICA

    Mr. Mavhinga. Thank you, Chairman Flake, Ranking Member 
Booker, and other members of the subcommittee, for giving me 
the opportunity to testify on behalf of Human Rights Watch at 
this hearing on Zimbabwe.
    Mr. Chairman, my testimony will first lay out the human 
rights situation in Zimbabwe since the military takeover and 
then highlight key recommendations to the U.S. Government for 
action to press the interim Zimbabwean Government to ensure a 
rights-respecting environment leading to democratic, credible, 
transparent, and peaceful elections and political stability 
thereafter.
    Following the military takeover, Robert Mugabe resigned as 
president on November 21 and on November 24, was replaced by 
his former deputy, Emmerson Mnangagwa, who has his own long 
record of human rights violations. In his inaugural speech, 
Mnangagwa confirmed that elections will take place in 2018 as 
scheduled but did not address critical issues, notably security 
sector, media, electoral reforms necessary to ensure credible, 
free, and fair elections.
    As reports of abuses by the military since the takeover 
began to emerge, the excitement and euphoria that many 
Zimbabweans greeted the end of Mugabe's rule quickly fizzled 
out to be replaced by uneasiness and uncertainty. Allegations 
are rife that between November 14 and 24, the army arrested and 
detained a number of Mugabe's associates without providing 
information about the arrests or places and conditions of 
detention. Since the military takeover, soldiers have not 
returned to the barracks, but instead are now involved in 
policing on the streets. This is the same military that has 
been credibly implicated in rights violations against the 
general population during the Mugabe years.
    On November 24, High Court Judge George Chiweshe ruled that 
the military intervention that led to Mugabe's ouster was 
lawful under Zimbabwe's constitution. Whatever the merits of 
the ruling, the judgment could embolden the military to carry 
out further incursions in Zimbabwe's political or electoral 
affairs in the future. The highly partisan stance of Zimbabwe's 
military leadership, particularly without meaningful security 
sector reforms, significantly reduces the chances that free, 
fair, and credible elections can be held.
    There is an urgent need ahead of the elections for 
Zimbabwe's Constitutional Court to review Judge Chiweshe's 
ruling and ensure that members of the security forces observe 
strict political neutrality. Failure to ensure a professional, 
independent, and nonpartisan role of the security forces may 
make it difficult to deliver elections needed to put Zimbabwe 
on a democratic, rights-respecting track.
    Following the military takeover, the leadership of the 
Southern African Development Community, SADC, called on all 
stakeholders in Zimbabwe to peacefully resolve the nation's 
political challenges. SADC leaders also welcomed Mugabe's 
decision to resign, pledging to support the 2018 elections. 
While the African Union initially condemned the military 
takeover, the regional body later welcomed Mugabe's 
resignation.
    The AU and SADC have yet, however, to address the need for 
the new administration to design a road map for democratic 
elections and the political neutrality and noninterference of 
the security forces in civilian and electoral affairs of the 
country.
    In early December, the European Union Ambassador to 
Zimbabwe, Phillipe van Damme, said the EU will not provide 
significant new funding to Zimbabwe until the country holds 
free, fair, and credible elections.
    Human Rights Watch is of the view that full reengagement 
with the Zimbabwean Government should be based on a firm 
commitment from the interim administration in Harare that they 
will institute measures that will ensure tangible and long 
overdue democratic and electoral reforms. A key benchmark for 
increased U.S. Government engagement should be an independent 
assessment of the environment in which the 2018 elections are 
conducted and the transfer of power to an elected civilian 
government. It is important now that the military leadership 
publicly announce its commitment to credible, free, and fair 
elections and that it respects the outcome of the elections.
    Mnangagwa's government should be encouraged through public 
statements to demonstrate commitment to accountability, justice 
for human rights abuses, and respect for the rule of law in 
Zimbabwe. We believe that Mnangagwa's recent calls to let 
bygones be bygones should not extend to serious human rights 
violations since 1980, many of which implicate the military, 
like the period from 1982 to 1987 when the 5th Brigade army 
unit carried out widespread human rights abuses, including the 
torture and unlawful killing of an estimated 20,000 people, 
military abuses in 2008 elections, as well as the abuses in the 
Marange diamond fields in the east of the country.
    Currently, the Zimbabwe Electoral Commission, which is 
charged with overseeing the 2018 elections, is dominated by 
partisan state intelligence and military officials. Electoral 
reforms should start with making the Zimbabwe Electoral 
Commission independent and professional. The commission is 
compiling a new voters' register. Unlike countries like 
Botswana or Mozambique, which guaranteed the diaspora vote, 
Zimbabwe does not provide or implement the diaspora vote unless 
in diplomatic missions.
    The Mnangagwa government should also take steps to amend or 
repeal repressive laws that exist and that had been used under 
the Mugabe government.
    Our key recommendations to the U.S. Government include that 
the U.S. Government should maintain the existing policy towards 
Zimbabwe until the military removes itself from politics and 
the 2018 elections are legitimately assessed to be peaceful, 
transparent, free, and fair and that power is smoothly 
transmitted to the newly elected government.
    Press, through public statements and support to 
nongovernmental organizations in Zimbabwe for the 
accountability and justice for past serious abuses and respect 
for the rule of law.
    Urge the Trump administration to make Zimbabwe's transition 
a priority in the region and to work closely with the SADC to 
press Zimbabwe's political leadership to ensure the political 
neutrality of the security forces, impartially investigate and 
appropriately prosecute alleged abuses by the military, and 
provide for the timely and sufficient deployment of domestic 
and SADC-led international observers to promote credible, free, 
and fair elections in Zimbabwe.
    We also urge the U.S. administration to provide direct 
financial and technical support to the government that comes to 
power through credible, free, and fair elections and that is 
committed to strengthening democratic state institutions that 
promote the rule of law, good governance, and human rights.
    Mr. Chairman, my sincere thanks once again for the 
opportunity to address this subcommittee. And I am happy to 
respond to any questions that the committee might have. Thank 
you.
    [Mr. Mavhinga's prepared statement follows:]


                  Prepared Statement of Dewa Mavhinga

          zimbabwe after the military takeover: prospects for 
              credible elections and human rights reforms

                              Introduction

    Thank you, Chairman Flake, Ranking Member Booker, and other members 
of this subcommittee for giving me the opportunity to testify on behalf 
of Human Rights Watch at this hearing on Zimbabwe. I would like to 
request that my statement in its entirety be submitted for the record.
    My name is Dewa Mavhinga. I am Southern Africa director in the 
Africa Division of Human Rights Watch where I lead, among other duties, 
our human rights investigation work on Zimbabwe. I frequently travel to 
Zimbabwe and last month I was in Harare when the military takeover 
occurred on November 15, 2017. I have met with leaders of the main 
political parties, private media, and key civil society groups to 
assess human rights conditions since the military takeover and ahead of 
national elections scheduled for 2018. A Zimbabwean national myself, I 
maintain daily contact with local activists, and religious and business 
leaders in the country who regularly update me on the situation there.
    Mr. Chairman, my testimony will first lay out the human rights 
situation in Zimbabwe since the military takeover of government 
functions on November 15, and then highlight key recommendations to the 
U.S. Government for action to press the new Zimbabwean Government to 
ensure a rights-respecting environment leading to democratic, credible, 
transparent and peaceful elections and political stability thereafter.

                   I. Current Human Rights Situation

The Military Takeover and Mugabe Ouster
    Following the military takeover, Robert Mugabe resigned as 
president on November 21 after 37 years of authoritarian rule marred by 
countless serious human rights violations. On November 24, Mugabe was 
replaced by his former deputy, Emmerson Mnangagwa, who has his own long 
record of rights violations. In his inaugural speech, Mnangagwa 
confirmed that elections will take place by August 2018 as scheduled, 
but he did not address critical issues, notably the security sector, 
media, and electoral reforms necessary to ensure credible, free, and 
fair elections. There has been no indication that the Mnangagwa 
administration intends to ensure the independence and enhance the 
professionalism of the Zimbabwe Electoral Commission (ZEC).
    As reports of abuses by the military since the takeover began to 
emerge, the excitement and euphoria that many Zimbabweans greeted the 
end of Mugabe's rule quickly fizzled out to be replaced by uneasiness 
and uncertainty. Allegations are rife that between November 14 and 24, 
the army arrested and detained a number of Mugabe's associates without 
providing information about the arrests, or places and conditions of 
detention. Since the military takeover, soldiers have not returned to 
the barracks, but instead are now involved in policing the streets. 
This is the same military that has been credibly implicated in rights 
violations against the general population during the Mugabe years. 
Mugabe openly encouraged partisanship of the military as a tool for 
maintaining his grip on power. The new president, Mnangagwa, assumed 
office with military backing, and appointed two army generals to 
cabinet, Air Marshal Perence Shiri, and Maj. Gen. Sibusiso Moyo. This 
raised concerns about Mnangagwa's independence from the armed forces, 
suggests further entrenchment of the military in civilian affairs.
Legalization of Military Involvement in National Politics
    On November 24, High Court Judge George Chiweshe ruled that the 
military intervention that led to Mugabe's ouster was lawful under 
Zimbabwe's constitution. Whatever the merits of the ruling, the 
judgment could embolden the military to carry out further incursions in 
Zimbabwe's political or electoral affairs in the future. The highly 
partisan stance of Zimbabwe's military leadership, particularly without 
meaningful security sector reforms, significantly reduce the chances 
that free, fair and credible elections can be held.
    The military has a long history of partisanship with the ruling 
party, ZANU-PF, interfering in the nation's political and electoral 
affairs in ways that adversely affected the ability of citizens to vote 
freely. The partisanship of the security forces' leadership has 
translated into abuses by these forces against civil society activists, 
journalists, and members and supporters of the opposition political 
party, the Movement for Democratic Change (MDC).
    There is an urgent need, ahead of the elections, for Zimbabwe's 
Constitutional Court to review Judge Chiweshe's ruling, and ensure that 
members of the security forces observe strict political neutrality. 
Failure to ensure a professional, independent and non-partisan role for 
the security forces may make it difficult to deliver the elections 
needed to put Zimbabwe on a democratic and rights-respecting track.
Zimbabwe's Re-engagement with the International Community
    Following the military takeover, the leadership of the Southern 
African Development Community (SADC) called on all stakeholders in 
Zimbabwe to peacefully resolve the nation's political challenges. SADC 
leaders also welcomed Mugabe's decision to resign, pledging to support 
the 2018 elections.
    While the African Union initially condemned the military takeover, 
the regional body later welcomed Mugabe's resignation. The AU said it 
recognized that the Zimbabwean people have expressed their will that 
there should be a peaceful transfer of power and Mugabe's decision to 
resign paved the way for a transition process, owned and led by the 
people of Zimbabwe.
    The AU and SADC have yet, however, to address the need for the new 
administration to design a roadmap for democratic elections and the 
political neutrality and non-interference of the security forces in 
civilian and electoral affairs of the country.
    In early December, the European Union ambassador to Zimbabwe, 
Phillipe van Damme, said the EU will not provide significant new 
funding to Zimbabwe until the country holds free, fair, and credible 
elections.
    Human Rights Watch is of the view that full re-engagement with the 
Zimbabwean Government should be based on a firm commitment from the 
interim administration in Harare that they will institute measures that 
will ensure tangible and long overdue democratic and electoral reforms. 
A key benchmark for increased U.S. Government engagement should be an 
independent assessment of the environment in which the 2018 elections 
are conducted and the transfer of power to an elected civilian 
government. It is important now that the military leadership publicly 
announce its commitment to credible, free and fair elections and that 
it respects the outcome of the elections.
Accountability and Justice for Past Abuses
    Mnangagwa's Government should be encouraged through public 
statements to demonstrate commitment to accountability, justice for 
human rights abuses, and respect for the rule of law in Zimbabwe. We 
believe that Mnangagwa's recent calls to ``let bygones be bygones'' 
should not extend to serious human rights violations since 1980, many 
of which implicate the military. The first post-independence overt 
military involvement in Zimbabwe's political affairs was during the 
period from 1982 to 1987 when the Government deployed a section of the 
army, the Fifth Brigade, ostensibly to quell a military mutiny in the 
Midlands and Matabeleland provinces. The Fifth Brigade carried out 
widespread abuses including torture and unlawful killing of an 
estimated 20,000 people. In 1988 the Government granted amnesty to all 
those involved in human rights violations committed between 1982 and 
1987.
    The military has also interfered in the nation's political and 
electoral affairs in ways that adversely affected the ability of 
Zimbabwean citizens to vote freely, particularly during the 2008 
elections when the army engaged in numerous systematic abuses including 
political violence, torture, and arson targeting political opponents. 
That violence resulted in the killing of more than 200 people, the 
beating and torture of 5,000 more, and the displacement of about 36,000 
people. ZANU-PF-affiliated military leaders who were implicated in the 
violence and abuses were never held to account. The military's 
historical record should not go unnoticed as Zimbabwe prepares for 
another election.
    In October 2008, soldiers killed more than 200 people and committed 
other serious human rights abuses in Chiadzwa, a village in Marange 
district, eastern Zimbabwe, and violently seized control of the 
district's diamond fields. Human Rights Watch investigations showed 
that between 2008 and 2014 the Government rotated army brigades into 
Marange to ensure that different brigades had an opportunity to benefit 
from the diamond trade. Soldiers harassed and threatened miners and 
other civilians into forming syndicates so that the soldiers could 
control diamond mining and trade in Marange.
Independence of the Zimbabwe Electoral Commission
    Currently, the Zimbabwe Electoral Commission's secretariat - which 
is charged with overseeing the 2018 election process - is dominated by 
partisan state intelligence and military officials. Electoral reforms 
should start with making the Zimbabwe Electoral Commission independent 
and professional. The commission is compiling a new voters' register. 
Unlike countries like Botswana or Mozambique that guarantee the 
diaspora vote, there is no provision for Zimbabwean citizens in the 
diaspora to vote from outside the country, unless in diplomatic 
missions. In early December, the chairperson of the Zimbabwe Electoral 
Commission, Justice Rita Makarau, resigned from her post without 
stating reasons. Mnangagwa will replace Makarau with a former judge or 
a person qualified to be a judge. A key part of Zimbabwe's election 
credibility rests on ensuring that the chairperson is replaced by 
someone known to be independent, impartial, non-partisan and with the 
capacity to deliver a democratic election. If Makarau is replaced by a 
person aligned to the military, and lacking in independence and 
professionalism, a credible election will not be possible.
Restrictions on Rights to Freedom of Expression, Association, and 
        Assembly
    The Mnangagwa Government should also take steps to amend or repeal 
repressive laws such as the Access to Information and Protection of 
Privacy Act (AIPPA), the Public Order and Security Act (POSA), and the 
Criminal Law (Codification and Reform) Act. These laws were used under 
Mugabe to severely curtail basic rights through vague defamation 
clauses and draconian penalties. Partisan policing and prosecution has 
worsened the impact of the repressive provisions in the AIPPA and POSA 
laws. Failure to repeal or significantly revise these laws and to 
develop mechanisms to address the partisan conduct of the police leaves 
little chance of the full enjoyment of rights to freedom of association 
and peaceful assembly prior to and during the coming elections.

             II. Key Recommendations to the U.S. Government

    Historically, the U.S. Government has shown a strong interest in 
promoting respect for the rule of law, good governance and human rights 
in Africa. The Trump administration has yet to demonstrate leadership 
on human rights issues in Africa so it is more important than ever that 
Congress promotes human rights as a core pillar of U.S. foreign policy. 
To that end, Congress should support the people of Zimbabwe by calling 
on the Mnangagwa Government to set and implement a clear roadmap for 
democratic elections.
    Specifically, Human Rights Watch urges Congress to:

 1. Maintain existing U.S. policy toward Zimbabwe until the military 
        removes itself from politics and the 2018 elections are 
        legitimately assessed to be peaceful, transparent, free and 
        fair and that power is smoothly transmitted to the newly 
        elected government.
 2. Press, through public statements and support to nongovernmental 
        organizations in Zimbabwe, for accountability and justice for 
        past serious abuses and respect for the rule of law.
 3. Urge the Trump administration to make Zimbabwe's transition a 
        priority in the region and to work closely with SADC to press 
        Zimbabwe's political leadership to:

   ensure the political neutrality of the security forces;
   impartially investigate and appropriately prosecute alleged abuses 
        by military personnel;
   provide for the timely and sufficient deployment of domestic and 
        SADC-led international election observers to Zimbabwe to 
        promote credible, free and fair elections, and maintain such 
        monitors for a suitable period after the elections to deter 
        violence and intimidation; and
   ensure the repeal or amendment of repressive sections of the 
        Criminal Law (Codification and Reform) Act, the Public Order 
        and Security Act, and the Access to Information and Protection 
        of Privacy Act.

 4. Withhold direct financial and technical support to the Government 
        until a government comes to power through credible, free and 
        fair elections that is committed to strengthening democratic 
        state institutions and promoting the rule of law, good 
        governance, and human rights.

    Mr. Chairman, my sincere thanks once again for the opportunity to 
address this subcommittee. I am happy to respond to any questions you 
or your colleagues may have.


    Senator Flake. Thank you. Thank you all for your testimony.
    I will start with questioning. Mr. Godwin, Mnangagwa has 
made a few changes that are an appeal to populism I guess. He 
has gotten rid of the big motorcade that the president traveled 
around in. Will this work? Is he a charismatic leader, and how 
will the celebrations in the streets--should they be 
interpreted as we are glad that Mugabe is going or we are glad 
Mnangagwa is coming back?
    Mr. Godwin. I think the great tragedy of the jubilation 
that you saw, as Tendai Biti was referring to, not just in 
Harare and other places in Zimbabwe, but in cities around the 
world where there is a considerable Zimbabwean diaspora, is 
that what those celebrations showed primarily or almost 
exclusively was a huge relief that Mugabe had gone after 37 
years, that you had this kind of cold hand of stasis on the 
nation. It had no other leader. I felt like it was almost 
coming out of some kind of Stockholm syndrome where you had 
been chained to the radiator in the basement and everybody just 
came out into the light blinking and were enormously relieved.
    And I felt bad at the time for being curmudgeonly and 
saying this is going to be misinterpreted as a vote of 
confidence in Mnangagwa. People were jumping on the tanks and 
saying ``this is great.'' And the iconography of it all--
outsiders could be forgiven for interpreting it as though it 
had been a people's revolution. And it was not. I mean, the 
people were bystanders. We were spectators. People showed their 
huge relief at Mugabe's departure. But these were not 
celebrations in favor of Mnangagwa or even the army, although 
people in the short term were grateful that the army had been 
the crowbar that got Mugabe out. And these messages got mixed 
in those very early days. And I think to some extent we were 
all caught up in the relief of the moment when you have been 
under one authoritarian figure for that long.
    And it is my enormous regret now that we did not hold back 
and for the regional institutions, in particular for the AU and 
for SADC and for South Africa and for the international 
community to withhold any kind of recognition and whatever till 
some of the things we have all been talking about were achieved 
because that was our moment of greatest leverage.
    Now in many respects--I mean, I cop to being pessimistic 
here--it is my view that we have gone back to the status quo 
ante.
    Now, it is possible that Mnangagwa, who, if I am not 
mistaken, on at least two occasions was unable to win his own 
constituency, was not a charismatic leader, was a back-room 
person, kept a very low profile. But we are already seeing him 
wrap himself in the regalia of the personality cult. We were 
just looking earlier at the new fabric that is being produced 
with his image on it and giving himself doctorates and one 
thing and another. And you see people rushing to where power 
is. So I do not think that we can hope that somehow in his lack 
of charisma originally, that there will be some room for 
maneuver there. I doubt it.
    My problem with all of this is that if you look at the 
history of southern Africa, in every single country in southern 
Africa that has fought an anti-colonial liberation war where 
that liberation party then comes into power, not one single one 
of those parties has ever lost power. So you have still got 
FRELIMO in Mozambique, the MPLA in Angola, SWAPO in Namibia, 
ANC in South Africa, and Zanu-PF in Zimbabwe. And having been 
in the liberation war has such a strong validation for a 
political party that it is extremely difficult for them to be 
eased aside in a general democratic way, a bit like Castro in 
Cuba or something. Opposition parties find it very difficult to 
get that same validity. I think that you will see very quickly 
that Mnangagwa will secure his position both as a head of Zanu-
PF and as president of the country.
    Senator Flake. Thank you.
    Mr. Biti, Zimbabwe's economic recovery will require 
resolving about a $10 billion debt. When should the 
international community restart debt relief discussions and the 
lending process? What are the benchmarks? When should this 
happen?
    Mr. Biti. Thank you, Mr. Chairman.
    I think on one of the issues that the country needs to 
address is self-evidently the issue of a collapsed economy, an 
economy in the respect of which 95 percent of our people are 
not employed, an economy in the respect of which since 2012 we 
have been on a downward spiral, an economy in the respect of 
which our current account is totally skewered, our capital 
account is totally skewered, and there is no livelihoods for 
people. People are suffering. So the economy needs to be 
addressed and addressed as a matter of urgency.
    But it is quite clear that one of the major stumbling 
blocks around the economy is the issue, number one, of domestic 
debt. We have a crippling domestic debt and a budget deficit 
that is, in fact, over 15 percent of total expenditure. They 
propose to reduce that to a mere 4 percent, but this is going 
to be a challenge.
    There is no question that we have to walk the talk as a 
country. There is no question that the benchmark key or the key 
precondition is how we conduct the 2018 election. The 2018 
election is going to be a major test on whether or not we can 
move away from the past 37 years of corruption, capture, and 
coercion into a new order, into a new Zimbabwe.
    So a lot will depend on the next election. If we are able 
to deliver as a country a free, fair, legitimate election in 
the respect of which everyone accepts the results thereof and 
the provisions of the constitution spelled out in section 2 of 
our constitution, the founding values of the constitution that 
deal with power transfer are respected and there is genuine 
power transfer in Zimbabwe, then quite clearly there is an 
obligation on the international community to assist us in 
resolving particularly the debt question where we have to 
engage the World Bank, the IMF, the African Development Bank, 
and the Paris Club of lenders.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. So I just have to say that I am not--you 
know, the testimony that you all prepared and the testimony 
that you all gave does not make me that optimistic about the 
2018 elections. Mr. Biti, you said in your testimony, in your 
oral testimony, even just the military--still their presence in 
the streets right now, that they have not demilitarized in the 
streets is somewhat concerning to me. The massive amounts of 
corruption that I have read about and that you all have written 
about and spoken about, the perversion of the mining industry 
that is going on right now, the self-dealing, the protectionism 
of a government that may have changed its principal figure but 
really has not changed the players, many of them who are under 
United States sanction already.
    And I guess my frustration with this is I do not believe we 
have an administration through the State Department focused on 
not to mention Zimbabwe, but other crises in Africa from the 
DRC to South Sudan. I just do not believe our administration is 
prioritizing this amidst a true crisis.
    And I guess there is obviously an appeal to keep our 
sanction regime in place. The Zimbabwe Democracy and Economic 
Recovery Act passed in 2001 to keep it in place. But I am just 
not feeling if that is enough in terms of trying to create--do 
everything we can as the United States of America and, as Mr. 
Biti told me, this is one of the guiding light democracies--
that we are really engaging enough.
    And I guess what I am looking for from the panelists--and 
really I benefit from having a chairman of this committee who 
is very engaged, very focused. I guess what I am hoping is that 
you might inform us on additional actions we could be taking to 
help bring about the long list of reforms. Mr. Biti, you laid 
out the Congressional Research Service, which we had laid out. 
I mean, everybody is laying out what needs to happen and the 
kind of reforms, economic reforms, military reforms, 
constitutional reforms, election reforms. I mean, I am seeing 
what the pathway is and the benchmarks, but I am not going to 
leave here today feeling that confident that this is something 
that we are going to be able to achieve given what is going on.
    Now, you all have been incredibly generous to come to the 
United States, to come here changing some significant plans to 
come here. But I wonder if you could be more directive to a 
junior Senator in the United States of America that if you were 
where we were, what would you be pushing the State Department 
to do, what would be you using our position to really change 
what--I am sorry--I just do not have confidence that 2018 is 
going to bring about the kind of reforms. I do not have 
confidence that the very people that committed atrocities are 
going to somehow create a process by which there can be 
accountability for those atrocities.
    And I worry about the people of Zimbabwe right now who are 
suffering an economy that is in very bad shape, unemployment 
rates that are extraordinarily high. This is a humanitarian 
crisis going on, and really it is a crisis stimulated by a 
governance crisis because Zimbabwe is a country of great 
wealth, great competitive advantage, great opportunities. And 
the block towards the kind of reforms that could have Zimbabwe 
thriving, a nation that used to be one of the region's bread 
baskets--I mean, there is so much greatness in Zimbabwe. But I 
really see that the obstacle is governance.
    So I guess this is just a plea to the panelists. Maybe you 
can go one at a time, and my time will be expired. But to give 
me some direction, to give this committee of committed 
bipartisan folks--the people you saw from Senator Young, 
obviously Senator Flake, Senator Coons feel a passionate love 
of Zimbabwe and a concern for the people. I would love it if 
maybe we could just one at a time to give me some direction 
over this next year to maybe ramp up American influence to 
bring about more robust democratic institutions. Maybe we can 
start Mr. Mavhinga.
    Mr. Mavhinga. Thank you so much.
    For us at Human Rights Watch, the key really is to 
acknowledge that what we have now is not the normal, is not 
something that should be accepted in the sense of having the 
military on the streets, and therefore, the U.S. administration 
could strongly push the Southern African Development Community 
and the African Union and other players to insist on a road map 
for democratic elections and to then say, as my colleagues have 
said, that a key benchmark really to review relations is an 
independent assessment of the environment in which the 2018 
elections are held. And this includes domestic and 
international observers to elections having full access to the 
country, to all parts of the country without interference. And 
this would also include ensuring that watching closely the 
replacement of the chairperson of the Zimbabwe Electoral 
Commission, who has just resigned--that person who replaces is 
someone who is known to be independent, impartial, nonpartisan, 
and with the capacity to deliver a democratic election. So a 
strong focus on a democratic election ahead of every engagement 
would be key moving forward. Thank you.
    Senator Booker. Thank you.
    And I just want to say I did not mean my criticism was of 
the State Department. We had a wonderful witness, Ms. Sullivan, 
who was here before--dedicated people in the State Department 
who have been focused on this issue. I really mean 
administrative prioritization in terms of reflected in their 
budget, reflected in many of the vacancies that we are seeing 
around Africa. I am sorry, Mr. Biti. I just want to make sure 
that my comments were not misinterpreted to the extraordinary 
public servant we had in the first panel.
    Mr. Biti? And at some point, Mr. Biti, in your response 
could you say my name again because the way you say Booker, it 
is just really--[Laughter.]
    Senator Booker. I can get over how wonderful that is. I 
need to record that.
    Senator Flake. That is what I am calling him.
    Mr. Biti. Well, look, I think your conclusions might lead 
to the position of pessimism. But we as Zimbabweans are hopeful 
that we will go to destination a new Zimbabwe.
    Zimbabwe is not the first country that is difficult, that 
the international community has had to deal with and is dealing 
with. You have got hopeless places like Somalia, like South 
Sudan, Eritrea, the Democratic Republic of Congo. But when you 
look at Zimbabwe, there are certain drivers of change. We are 
in a genuine transition that is not just restricted or limited 
to the fact that a President Mugabe is normal. There are 
certain drivers of change that make genuine transformation 
inevitable, whether it is next year or it is 5 years from now. 
There are genuine drivers of change.
    Number one is the economy. People are suffering. People are 
excluded. People are de-legitimized. It cannot go on as the 
status quo right now. It cannot be business as usual where you 
have 95 percent of your people unemployed, where you have 82 
percent of your people surviving on less than U.S. 35 cents a 
day. Something has to give. So the new authorities and every 
one of us know that there must be change and huge change.
    The military intervention in November has created huge 
demand, huge expectations, and the honeymoon period has been 
very short. People want delivery. People want action. So 
everyone in Zimbabwe, the civic society, the opposition, and 
the new authorities--they all understand that we have to 
deliver something on the table for suffering in Zimbabwe. That 
is a driver of change.
    Number two is the youth. 69 percent of our people are below 
the age of 35. We are producing about 500,000 graduates every 
year, but we cannot give them jobs. By 2045, our population 
would have doubled in Zimbabwe. The economy is not growing 
sufficiently to absorb the population bulge. So that one is a 
driver of change.
    You have an opposition that is reorganizing that is coming 
us together. You have seen us here as a team. That is an 
important driver of change.
    So I have absolutely no doubt in my mind that there will be 
some change. The people that came out in the streets of 
Zimbabwe, including in places like New York here, like South 
Africa, and Cape Town. They were sending a message they were 
ready for change. They are demanding change. And the majority 
of people who are in those marches were millennials, young 
people who want genuine transformation in their country.
    So the United States Congress must continue to do what it 
has done very well in the past: number one, interface with our 
people. The United States remains the biggest donor, the 
biggest supplier of overseas development assistance in 
Zimbabwe. You are very active in our health sector, for 
instance. You used to call it humanitarian plus, plus. That 
support must continue because it is interfacing with our 
people.
    The support for the democratic processes, which you have 
been known for for so many years, must continue. Engagement 
with our government on these key issues we have discussed is 
very key. I think everyone must know that there is a reward for 
good behavior. There is a reward for constitutionalism. There 
is a reward for international engagement.
    So right now is a great opportunity for interfacing, for 
saying to Zimbabwe, you have a great opportunity. Do not miss 
this opportunity. Notwithstanding that it might appear so 
gloomy, it might appear so desperately pessimistic, the bottom 
line is that we have got an opportunity and we do not intend to 
squander this opportunity.
    Senator Booker. Thank you, Mr. Biti, and thank you for your 
just courage in general as part of the opposition.
    Mr. Godwin, will you take me home?
    Mr. Godwin. I completely understand your frustration, and 
we share it too. This has gone on for an awfully long time. We 
have lost a whole generation to this situation. And sometimes I 
think we are stuck in this sterile binary. And Zimbabweans are 
a very hopeful people and we are easy to peddle hope to. We 
have low expectations and they are often dashed.
    Sometimes one is tempted to indulge in a period of blue-sky 
thinking to say we have had these sanctions, these 
individualized sanctions in place for however long, and they 
have made no effect whatsoever. In fact, what they have done to 
some extent, critics will say, is provided Zanu-PF with a very 
convenient excuse. For every time the economy is bad, they say, 
oh, it is sanctions, it is sanctions, it is not us, blame 
America, blame the EU, whatever. And it shields them from the 
consequences of their own mismanagement.
    Bear in mind that Zimbabwe, as far as I understand it, is 
if not the, one of the fastest shrinking economies in the 
history of peacetime failure of economies. You have to look far 
and wide to find a self-inflicted failed state spiral that does 
not involve war. It is purely incompetence and corruption and 
patronage.
    On that subject, there are two other things. And I am not 
necessarily recommending these, but if one is casting around 
for alternatives because clearly what we have been doing has 
not been working, one of the things to do is to do what they 
did in Lancaster House, which is that you bring together a huge 
pot of money. You basically put all the things that you would--
and it is not necessarily new money, but you bring the 
international community together, all the donors, all the 
bilateral aid, et cetera, et cetera. And you hold this thing 
out and you coordinate it, and you say if you do these certain 
things, if you meet these certain benchmarks, whatever, we will 
unlock this thing. And they look at this glittering pile of 
goodies and they think, my God, you know, everybody gets 
excited about it, whatever. And you turn it around. At the same 
time as you have that carrot, you have a stick where you say 
and if you do not, then we are going to ratchet things up, and 
you kind of just basically make it even starker--their 
alternatives.
    I think that the other thing--and I am sort of almost even 
hesitant to even mention this--is that you flip the sanctions 
that you have got now. I mean, I am not sure technically if it 
would be called sort of reverse sunset clause where you say, I 
will tell you what we will do. You have got this new 
government, whatever. We will give you the benefit of the doubt 
for 6 months or say until the next elections. We are going to 
drop all sanctions and whatever, but they will automatically go 
back on if you do not meet these benchmarks, the benchmarks 
that we have all been talking about, the ones that there is 
pretty wide agreement on in civic society. And that way you 
take away the excuse of sanctions and whatever. You put it back 
and you flip it. That would be a way to prioritize the carrot 
over the stick and mix it up and see if it works. I mean, my 
personal opinion is I do not think it would, but sometimes that 
can be unlocked.
    My worry with Zimbabwe is that in the way that it has 
changed and the way this whole calculation has changed is that 
Zimbabweans are a very, very--they have a lot of initiative. 
They are able to make a plan. They are enormously adaptable. 
And there are so many of the best Zimbabweans fleeing the 
country all the time into the diaspora. A lot of the leadership 
echelon, a lot of people who should be at home doing stuff are 
going away. And what they do ironically is they assist Zimbabwe 
in surviving because the country exists on their remittances. 
Zimbabwe has a huge remittance economy. It is like the 
Philippines or Pakistan or Egypt. And the more people who go 
out, the more that they actually send money back and they keep 
the government going.
    So, I mean, those are some of the thoughts I think that one 
might entertain. I mean, Lancaster House--they did it in a 
peace conference. They pulled everybody together and said what 
should we do. And that would be one way to look at it.
    Senator Booker. Thank you very much, sir.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    I have a few more questions if that is okay.
    Senator Booker. Yes, please.
    Senator Flake. Mr. Godwin, you had quite a unique 
perspective during the 1980s, during the Matabeleland massacre. 
As a lawyer at that time, what do you suppose the response will 
be for those who want to hold people accountable? What are we 
likely to hear from the president who was then the chief of 
intelligence at that point? What are we likely to hear?
    Mr. Godwin. What I am always astonished by--and I was a 
young reporter down there on the ground when that happened. It 
was the first big story of mine. And for me the Matabeleland 
massacres were Zanu-PF's original sin. When I saw what that was 
and what it consisted of, it was something where--I, along with 
so many people, had gone back to Zimbabwe after 1980, and this 
was going to be this big, new progressive experiment--and I 
never recovered from it, and I do not think the country ever 
fully recovered from it. I think we lost our moral core and we 
lost the whole sort of hopeful thing that everybody had up 
until that point.
    What I am consistently surprised and amazed by is actually 
how generous of spirit the victims and the families of the 
victims are. In my view--and I do not speak for these people. 
These people have their own voices. In talking to them, my 
takeaway is that they are incredibly reasonable. And what they 
really want is acknowledgement. They want acknowledgement of 
what has happened. They want an inquiry. They want this thing 
to not be swept under the carpet all the time. And for a 
government, for any government, it is actually a concession you 
can make that does not cost you that much. I mean, now that it 
is actually really quite a long time ago--they have gone a 
little bit--once, you know, they said a ``moment of madness.'' 
Well, there is a slight problem with it being a ``moment of 
madness,'' when it took 4 years, 5 years, depending on how you 
calculate it. So it was not a moment of madness.
    And the other problem is that two of the people who were 
most intimately involved in the Matabeleland massacres are now 
more senior than ever before. So in a sense the more direct 
perpetrators, the most direct perpetrators, especially Perrance 
Shiri, who commanded the troops in the field who were doing 
this, is now in the cabinet. So, in a perfect world, I think 
that really has to be dealt with, and the country cannot move 
on really. The culture of impunity we were talking about 
before--it really starts with the Matabeleland massacres, and 
then it goes on through all these other things.
    Zanu-PF has been rewarded. Every time it has used violence 
for political ends, it has worked. If you just look at it on a 
cause-and-effect basis, it has worked for them. And they have 
not had to pay a price for it. And if that goes on, it becomes 
completely irrational for them to stop. Why would they stop? It 
works every time.
    Senator Flake. Thank you.
    Mr. Biti, it was mentioned in your testimony and others 
that you need the diaspora to be able to vote, and that is part 
of the constitution right now. And there are about 4 million 
Zimbabweans living abroad, which would represent a sizeable 
chunk if they were able to vote. How much resistance do you 
think you will get from the government to make good on the 
constitutional protections there? Because one would assume that 
a good chunk of those outside of the country might see things 
differently than the ruling party.
    Mr. Biti. Thank you, Mr. Chairman.
    The constitution is very clear in section 67 that every 
citizen has a right to participate in the political affairs of 
one's own country, and they have got the right to make a 
political decision, including the right to vote. This provision 
in the constitution we took from the South African constitution 
where there is a judgment that says the diaspora has a right to 
vote. So we are insisting that we cannot disenfranchise the 
millions of Zimbabweans that are in the diaspora.
    In the past, there has been serious resistance by the 
government, by the authorities against the enfranchising people 
in the diaspora. The major argument and the major understated 
premise has been that people in the diaspora are deemed to be 
opposition, but that is neither here nor there. We have to 
empower and enfranchise Zimbabweans abroad.
    There have also been excuses around the costs associated 
with this exercise. But if you look at the models used by other 
African countries, including South Africa, including 
Mozambique, for instance, to name two examples, voting centers 
are simply set up at embassies. So the citizen would have to 
travel. In the case of the United States of America, one 
travels to Washington, D.C. One could travel to New York. So 
logistics cannot be an excuse for denying the right of people 
to vote.
    But what is key in all the benchmarks we have spoken of, 
all the reforms we have spoken of--it is important that they 
are time-bound. It is important that they are timelined. It is 
important that these reforms are smart so that they are 
meaningful and substantive.
    And it is important that the United States engages, that 
there is incentive and reward for any effort towards good 
behavior. But it is also important to speak out against 
transgressions and noncompliance.
    And I rested my point that we are at a critical juncture 
where important decisions can be made for our country. And 
indeed, it will be a very sad day if the excitement, the joy, 
the jubilation, the exhilaration that we saw on the 18th of 
November, 2017 is a hijacked one, is a captured one, is a lost 
one. We have a duty as Zimbabwean leaders to ensure that we 
will fulfill the expectation that was expressed in the streets 
on the 18th of November 2017.
    Senator Flake. Thank you.
    Mr. Mavhinga, how free is the media now in Zimbabwe, I 
should say prior to the coup and now after what changes have 
been promised, if any? What needs to happen with regard to a 
free and independent media?
    Mr. Mavhinga. Thank you, Mr. Chairman.
    When the military takeover occurred on November 15, the day 
before on November 14, Human Rights Watch was in Harare to 
speak out on the abuses around the media, particularly police 
abuses. The arrests of a number of journalists, police 
harassment, detentions of journalists was rife.
    Since the military takeover, the soldiers have particularly 
focused on what they call cybersecurity threats and say that 
social media now constitutes the highest national security 
threat to the authorities in Zimbabwe. So there is a danger now 
of shrinking space, and the soldiers have issued a number of 
warnings to those that are on social media and they have been 
increasing attacks on social media from those that are 
supportive of the authorities in Zimbabwe.
    What needs to happen now to open up the space for the media 
is to ensure that there are critical reforms, a repeal or 
amendment as appropriate of such laws as the Public Order and 
Security Act, the Access to Information and Protection of 
Privacy Act, and also to ensure that policing is impartial, is 
independent, is professional because partisan policing was also 
part of one of the reasons why there was this targeting of 
members of the media.
    One of the activists who disappeared in March 2015, Itai 
Dzamara, was himself a freelance journalist. Recently also an 
American citizen, Martha O'Donovan, was picked up and locked up 
and charged with seeking to subvert a constitutional government 
simply because of a Tweet. So this kind of trajectory has not 
gone away because the infrastructure, in terms of the laws in 
place, remain. So there is an urgent need as we prepare for 
2018 elections to look at legislative reforms that would open 
up the media space and ensure that there is a full 
implementation of the 2013 constitution which guarantees media 
freedoms but which are not enjoyed by citizens because of the 
laws that exist that are not in line with the 2013 
constitution.
    Thank you.
    Senator Flake. Thank you.
    Do you have any further questions, Senator Booker?
    Senator Booker. No, sir. Just hoping that we can keep the 
lines of communications open as things are unfolding especially 
into the coming year.
    Senator Flake. Well, thank you. I want to say thanks to all 
of the panelists again for rearranging your schedule and travel 
times. It is very much appreciated, and we will certainly call 
on you again, if we can, in terms of assistance to us as we 
formulate policy where we can be helpful.
    I appreciate the interest in this subcommittee. I 
appreciate the partnership that we have. As Senator Booker 
said, this is not a partisan issue, our response to Zimbabwe 
and our hope that we can have a brighter and more democratic 
future.
    So thank you. And with the thanks of the committee, this 
hearing stands adjourned.
    I should mention the hearing record will remain open until 
tomorrow. If you have any responses to give for members, if you 
could do it so promptly, we would appreciate it. Thank you.
    [Whereupon, at 3:48 p.m., the hearing was adjourned.]


                              ----------                              

              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
             Hon. Stephanie Sullivan by Senator Bob Corker

    Question 1. Zimbabwe has had a long political, security, and 
economic relationship with North Korea. Please describe the parameters 
of that relationship and its role today.

    Answer. We understand that Zimbabwe maintains longstanding 
political and trade relations with the DPRK, dating back to the days of 
Zimbabwe's liberation struggle. Nevertheless, Zimbabwe has been 
cooperative with U.N. Security Council Resolutions on the DPRK and has 
signaled its intention to fulfill those resolutions in their entirety. 
The Department stands ready to discuss specifics on DPRK-Zimbabwe 
relations in greater detail in a classified setting.

    Question 2. How will the U.S. address the North Korea-Zimbabwe 
bilateral relationship as it makes policy decisions relative to the 
changes in government in Zimbabwe?

    Answer. We continue to take action multilaterally and unilaterally 
to disrupt funding and resources the North Korean regime uses to 
support its unlawful nuclear and ballistic missile programs. The State 
Department is pressing countries around the world, including Zimbabwe, 
for action to pressure the DPRK politically, diplomatically, and 
economically. We are seeing unprecedented levels of cooperation from 
the international community resulting in stronger sanctions, increased 
diplomatic isolation of North Korea, expulsion of North Korean workers 
and diplomats, and cutting DPRK trade relationships.

    Question 3. What expectations will there be of the Government of 
Zimbabwe prior to any positive U.S. diplomatic actions?

    Answer. U.S. engagement with President Mnangagwa's administration 
must be based on demonstrated behavior, not rhetorical intentions. The 
Zimbabwean Government should enact overdue political and economic 
reforms to achieve a more stable, prosperous, and democratic future for 
the people of Zimbabwe.
    Our policy of re-engagement will focus on constitutional democracy, 
free and fair elections, respect for human rights and the rule of law, 
improved trade and investment climate, macroeconomic reform, and 
professionalization of state-run media. Whatever short-term 
arrangements the Government may establish, the path forward must lead 
to free, fair, and inclusive elections, in which the people of Zimbabwe 
choose their own leaders.

    Question 4. The role of freedom of the press as an important pillar 
of democratic governance has been a distant component of Zimbabwe's 
recent leadership. The necessity of an independent judiciary is another 
pillar of effective, inclusive and impartial governance. What 
opportunities does the U.S. have to help or continue to build the 
capacity of the free press?

    Answer. The United States supports the protection of all 
fundamental freedoms, such as freedom of expression, including for 
members of the press. Journalists, social media activists, human rights 
defenders, and civil society must be able to operate freely, without 
government censorship, intimidation, or interference, and all parties 
should have equal access to use of state media.
    One way the Zimbabwean Government can encourage media freedom is 
through reviewing and aligning laws to the 2013 Constitution, including 
by granting licenses to independent broadcast and print media outlets. 
Also, the Government can repeal or significantly reform laws and draft 
legislation that restrict media freedoms, including the Public Order 
and Security Act , the Access to Information and Protection of Privacy 
Act, and the draft Computer Crime and Cyber Crime Bill.
    Immediately after the change in government, we were pleased to 
engage Zimbabwe's state-run media, featuring two in-depth interviews 
with Ambassador Thomas--something that would not have happened under 
Mugabe's rule. Given this window, we are exploring opportunities to 
build the professionalism and integrity of state-run media.

    Question 5.  What role has [Broadcasting Board of Governors/Voice 
of America] BBG/VOA played in the past and in recent weeks? Is the BBG/
VOA programming seen as of good value and will it be sustained?

    Answer. BBG/VOA extensively covered the historic series of events 
in Zimbabwe that led to the end of Mugabe's rule. VOA expanded its 
programming to capture live broadcasts of ZANU-PF's expulsion of Robert 
and Grace Mugabe and Mnangagwa's return to Zimbabwe. The recent turn of 
events dramatically increased VOA's website traffic and activity on its 
social media platforms. VOA consistently receives positive feedback 
from its listeners for its objective and independent reporting.

    Question 6.  What opportunity is there for the U.S. to improve 
institutional elements or support components in the rule of law sector 
that would strengthen a more independent judiciary? Is it a priority at 
this time? If not, when would it be?

    Answer. We have long called for and continue to call for respect 
for the rule of law as a principle for our re-engagement with the 
Zimbabwean Government. This includes holding the state accountable for 
addressing human rights violations, to include excessive use of force 
by police, abductions, and torture of activists. An independent 
judiciary that ends impunity for all politically connected persons, of 
any party or political persuasion, from court rulings is a vital 
component to a strong rule of law. The United States will also continue 
to encourage a fully operational and independent Zimbabwe Human Rights 
Commission and National Peace and Reconciliation Commission, in line 
with the 2013 Constitution and enabling the fulfilment of their 
mandates.

    Question 7.  What resources are available and what mechanisms exist 
to implement assistance in furthering good governance in Zimbabwe?

    Answer. The U.S. Department of State and USAID have several funding 
mechanisms for interventions to strengthen good governance around the 
globe. The United States cannot fund Government of Zimbabwe 
institutions directly, but can work through a range of national and 
international non-governmental organizations to provide targeted, 
critical support in the lead up to and following elections, and to 
compel the Government of Zimbabwe to act justly and transparently as 
its new institutions take up their work.

    Question 8. Humanitarian assistance and investments in health have 
been a significant part of U.S. engagement in recent years. What 
resources might be made available if the political situation evolves 
positively in Zimbabwe?

    Answer. USAID has a small Feed the Future crops and livestock 
program that enables smallholder farmers to treat farming as a 
business. Agricultural commercialization among these farmers for FY 
2017 had sales for livestock and crops of over $1.8 million and $5.99 
million, respectively.
    The Mission's entrepreneurship training program trained 22,000 
youth and young women over the last two years, who earned $31 million. 
The Feed the Future program has been scaled back, and the 
entrepreneurship program is coming to an end, but if the situation 
evolves positively in Zimbabwe, the Mission could scale up these 
programs and capitalize on successes to date.

    Question 9. How important is Zimbabwe to the U.S. relative to our 
interests in the sub-region of southern Africa?

    Answer. U.S. interests in Zimbabwe have existed since before the 
country's independence in 1980. We believe strongly that a stable 
Zimbabwe means stability for all of southern Africa. We remain 
committed to the well-being of Zimbabweans through our health, food 
security, anti-trafficking, and democracy and governance programs.

    Question 10. Economics appears to be the most pressing component of 
the Government of Zimbabwe's needs and while often ignored in the past, 
to the detriment of the country and the large majority of its 
population, it is the key element of international leverage. How will 
the U.S. approach those international financial efforts, over which it 
has some influence, to relieve Zimbabwe's Government of any of the 
economic burden they have created for themselves?

    Answer. The United States is concerned that Zimbabwe's economy is 
experiencing stagnant growth, declining per capita incomes, and rising 
government spending financed by central bank borrowing and debt 
issuance, which crowds out the private sector and undermines the 
banking sector.
    We have urged the Zimbabwean Government to take steps, including 
revising the indigenization policy, improving the investment climate 
for foreign and domestic investors, addressing the Government's 
unsustainable wage bill, and improving its expenditure controls.
    We continue to oppose any new international financial institution 
(IFI) lending to Zimbabwe, unless it addresses the basic human needs of 
the poor. We also oppose any use of IFI resources to clear Zimbabwe's 
remaining IFI arrears--or to pay back an external creditor. The U.S. 
position is informed by both policy and legislation. Looking ahead, our 
approach will be guided by the actions of the Mnangagwa Government and 
consultation with Congress and non-governmental stakeholders. Genuine 
political and economic reforms would enable the United States to 
support the use of IFI resources and possible debt relief for Zimbabwe.

    Question 11. What criteria will be used by the USG to determine 
what if any influence it will bring to bear on economic relief or other 
financial burden for Zimbabwe?

    Answer. We must see meaningful political and economic reforms 
before we can support new lending by international financial 
institutions. We have urged the Zimbabwean Government to take steps, 
including revising the indigenization policy, improving the investment 
climate for foreign and domestic investors, addressing the Government's 
unsustainable wage bill, and improving its expenditure controls.
    Zimbabwe's economy is in the hands of Zimbabweans. Transparent and 
predictable pro-growth policies are essential to attracting business 
and investors. We will review our policies in response to actions by 
the Government.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Stephanie Sullivan by Senator Jeff Flake

    Question 1. Martha O'Donovan is an American citizen who was 
arrested in Zimbabwe in early November and charged with "undermining 
the authority of or insulting the president" because of some tweets the 
Mugabe regime accused her of posting. A handful of cases involving 
baseless charges against political opponents to the Mugabe regime have 
been dropped since President Mnangagwa was sworn in. However, Ms. 
O'Donovan's remains unresolved.

   What is your understanding of why the charges against Ms. O'Donovan 
        have not yet been dropped? How has the change of leadership in 
        Zimbabwe impacted the State Department's efforts to help Ms. 
        O'Donovan?

    Answer. We are aware of the case of the U.S. citizen and are 
providing consular assistance at her request. Due to privacy 
considerations, we cannot go into detail.
    When U.S. citizens are detained abroad, U.S. Embassy officials seek 
to aid them with all appropriate consular assistance.
    As for the other cases mentioned, we are pleased to see the charges 
dropped. We consider that to have been a small but positive step in the 
right direction and a possible indication of the new government's 
approach to such matters. We hope that approach may be replicated in 
similar cases.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Hon. Stephanie Sullivan by Senator Cory A. Booker

    Question 1. Martha O`Donovan, a U.S. citizen and New Jersey 
resident, was detained on November 3, 2017 for allegedly sending a 
Tweet in which she called former Zimbabwean President Robert Mugabe ``a 
selfish & sick man,'' an assertion which she denies. According to 
reports, she has been charged with subversion and attempting to 
overthrow the government, a crime which carries a sentence of up to 20 
years in prison. At the time, O`Donovan was working for Magamba TV, 
which describes itself as ``Zimbabwe's leading producer of cutting 
edge, political satire and comedy shows.' Her detention and prosecution 
raise serious questions over Zimbabwe's commitment to freedom of 
expression.
    Notably High Court Judge Clement Phiri said there was ``patent 
absence of facts'' in the state's case against her when he released her 
on bail last month. In addition, Amnesty International has called for 
the charges against O`Donovan to be dropped.

   What steps has the U.S. Embassy in Harare taken to provide consular 
        assistance to Ms. O`Donovan and secure her release?

    Answer. We are aware of the case of the U.S. citizen and are 
providing consular assistance at her request. Due to privacy 
considerations, we cannot go into the details of our assistance.
    It is our policy to urge the Government of Zimbabwe to ensure the 
protection of human rights and fundamentals freedoms, including the 
freedom of expression, which is enshrined in the country's 2013 
constitution.

    Question 2. Has the embassy or State Department seen new 
opportunities to secure her freedom since the installation of President 
Mnangagwa?

    Answer. We are aware of this case and are providing all appropriate 
consular assistance.

    Question 3. We have seen through the Kenyan and Liberian elections 
that violence and disruption can ensue, particularly when there are 
allegations of irregularities in the electronic systems and the 
electoral commission lacks appropriate capabilities. What are the State 
Department or USAID's plans to help Zimbabwe ensure that elections will 
be free, fair, and credible?

    Answer. We are working closely with Zimbabwean civil society and 
our like-minded partners in Harare and in our respective capitals to 
encourage the Zimbabwean government to undertake reforms, including 
laying the groundwork for free, fair, and credible elections. Should 
the Government of Zimbabwe take real steps to implement electoral 
reforms, we will be able to do more. The steps we need to see from the 
Government of Zimbabwe include: ensuring the independence of the 
Zimbabwe Electoral Commission; allowing all eligible citizens the 
opportunity to register and vote; discontinuing state sponsored 
violence; allowing international observers; and guaranteeing that all 
political parties have equal opportunities to campaign, including 
access to state media. We will continue to engage with all of 
Zimbabwe's political actors, including the opposition, recognizing that 
opposition parties and leaders have suffered a range of abuses over 
many years at the hands of the ruling party that retains power. Free, 
fair, and inclusive elections should allow the people of Zimbabwe to 
choose their own leaders freely. We will continue to support Zimbabwe's 
transition to democracy.

    Question 4. Do you believe that State and USAID have the resources 
to be able to assist Zimbabwe with their elections?

    Answer. Our programs are flexibly designed to respond to 
opportunities and minimize risks. USAID's Democracy, Rights and 
Governance Office is providing funding to civil society for election-
related programs. For example, USAID-funded civil society groups are 
conducting effective outreach that has encouraged tens of thousands of 
citizens to register to vote.

    Question 5. What is the State Department prepared to do if it finds 
that the elections in Zimbabwe were not fair, peaceful or credible?

    Answer. At this point, we do not want to pre-judge an outcome. We 
would like to offer President Mnangagwa and his government an 
opportunity to implement political reforms, including a credible 
electoral process. However, some recent actions have caused us concern, 
such as a prominent chief's pledge that all traditional leaders will 
support the ruling party and a presidential advisor's declaration that 
the military will campaign for the ruling party. Moreover, the ruling 
party's new commissar was involved in state-sponsored violence against 
the opposition during the 2008 elections. These circumstances place us 
under no illusion of how challenging it will be for Zimbabwe to conduct 
task free and fair elections.
    The future of Zimbabwe must be determined and established by the 
people of Zimbabwe. The Zimbabwean government should enact overdue 
political and economic reforms to achieve a more stable, prosperous, 
and democratic future for the people of Zimbabwe. We will not be able 
to change the nature of our engagement without an electoral process, 
including voter registration, which is credible and transparent, and 
consistent with Zimbabwe's regional commitments under the SADC 
Principles and Guidelines Governing Democratic Elections.Whatever 
short-term arrangements the government may establish, the path forward 
must lead to free, fair, and inclusive elections, in which the people 
of Zimbabwe choose their own leaders. We will continue to support 
Zimbabwe's transition to democracy.

    Question 6. The Kenyan and Liberian election also demonstrated the 
frustration that countries can experience with international observer 
missions. What are the lessons learned from those experiences and how 
are those lessons going to be incorporated into future election 
observation missions?

    Answer 6. Information sharing and coordination among election 
observation missions on electoral and security preparations enabled 
international observer teams collectively to observe more places around 
the country, limiting duplication and gaps as much as possible. Early 
preparations, regular meetings of various missions, and an integrated 
command center were also key to successful observation efforts. Key 
lessons learned include the importance of Mission Front Office 
leadership, centralized observation mission planning, practical 
scenario-based training for observers on processes and equipment, and 
planning for unusual election scenarios, such as Kenya's repeat 
election and Liberia's delayed runoff election. Taking into 
consideration these best practices would benefit future observation 
missions.

    Question 7. In Zimbabwe, one of the most highly mine-impacted 
countries in the world, the Conventional Weapons Destruction (CWD) 
program supports landmine clearance, victim assistance and risk 
education on the border with Mozambique, where hundreds of communities 
have lived with the legacy of more than 1.6 million mines for over 
three decades. These mines continue to kill and maim people and 
livestock, and block access to houses, schools, health clinics, 
farmland and water sources, affecting hundreds of thousands of people 
along the border.
    The State Department-funded demining program in Zimbabwe is one of 
the only assistance programs in the country, and employs over 400 
people from border communities to work clearing minefields. The program 
provides uncontroversial assistance to the people of Zimbabwe that 
cannot be subverted by the government. However, the FY 18 Congressional 
Budget Justification reduces funding to $1 million, and would result in 
a sizeable reduction in the workforce to the extent that the program 
will likely no longer be viable.
    How would you characterize the effectiveness of U.S. foreign 
assistance with regard to Zimbabwean landmine clearance?

    Answer. Since 1998, the United States has invested more than $15.6 
million in the removal and safe disposition of landmines and unexploded 
ordnance in Zimbabwe for the return of land for agricultural use.
    Through the work of our implementing partners, U.S. government 
funds have supported landmine clearance, mine risk education, and 
survivor assistance. U.S. assistance towards landmine clearance has 
saved many lives and is making a difference in Zimbabwean communities.

    Question 8. How would the FY 18 CBJ funding level, if enacted, 
impact landmine clearance operations in Zimbabwe?

    Answer. Continued landmine clearance assistance would save 
thousands of lives exposed to one of the most landmine-contaminated 
areas in the world.

                               __________


                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
